OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT
TO CONGRESS
OCTOBER 1, 2004 – MARCH 31, 2005




                                   October 1, 2004, through March 31, 2005 | 1
MISSION STATEMENT
     The mission of the U.S. Postal Service Ofﬁce of Inspector General
     is to conduct and supervise objective and independent audits,
     reviews and investigations relating to Postal Service programs
     and operations to:

          ■   Prevent and detect fraud, waste and abuse;

          ■   Promote economy, efﬁciency and effectiveness;

          ■   Promote program integrity; and

          ■   Keep the Governors, Congress and Postal Service
              management informed of problems, deﬁciencies
              and corresponding corrective actions.
A MESSAGE FROM THE INSPECTOR GENERAL
W      ith the Postal Service facing
       major ﬁnancial and operational
challenges and opportunities, we
                                         We are also focusing on customer
                                         satisfaction, both internally and
                                         externally.
                                                                                  investigative jurisdictions of both
                                                                                  organizations will be made.

are striving to provide high-impact,                                              In this reporting period, the OIG
high-quality, timely audits and inves-   Internally, we created a formal pay      issued 169 audit reports, manage-
tigations to help the Postal Service     for performance process, centered        ment advisories and other products.
meet those challenges. Building on       training around skills requirements      These efforts, some of which were
last year’s initiatives, our ofﬁce is    and postal knowledge, and located        accomplished by the OIG and postal
reaching full performance. We’ve         resources and personnel close to         management jointly, resulted in
become a leaner, better aligned          postal facilities across the country.    $133,550,374 in questioned costs,
organization and improved the            We also developed transaction-based      unrecoverable costs, funds put to
efﬁciency of our operations. While       processes that provide employee          better use, and revenue impact.
maintaining our independence, we         feedback on services provided by         Also in this time period, the OIG had
partner with the Postal Service to       mission support staff.                   49 signiﬁcant recommendations,
identify high-risk areas to focus our                                             of which 45 were accepted by the
audits and investigations.               Externally, our managers hold            Postal Service.
                                         strategically-focused meetings with
We continue to improve our               stakeholders to facilitate mutual        In addition, the OIG closed 1,269
productivity, as evidenced by our        understanding of our mission and         cases resulting in 306 referrals to
performance measurement system.          to help plan and develop audit and       management for administrative
Improvements over the same period        investigative initiatives. During this   action, 194 arrests and indictments,
in Fiscal Year (FY) 2004 include the     semiannual period, we sponsored          and over $12.3 million in ﬁnes, resti-
following:                               the ﬁrst Inspector General Summit        tutions, and recoveries.
                                         that also provided valuable insights
■   Investigations yielded a 143         and initiatives that were factored       This semiannual report reports on the
    percent increase in the number of    into our audit and strategic plan-       state of the Postal Service through
    arrests and indictments.             ning processes. Many audience            the eyes of the OIG by focusing on
                                         participants commented that the          the ﬁve Transformation Plan strategies
■   The Ofﬁce of Audit had a 35          summit could serve as a model for        — Improving Service, Managing
    percent increase in the number of    the Inspector General community to       Costs, Developing People, Growing
    audits with nationwide impact.       gain stakeholder input into signiﬁcant   Revenue, and Pursuing Reform —
                                         internal planning processes.             and how our work adds value.
For FY 2005, we are focusing
on directorate excellence, expert        Following the Postmaster General’s       In conclusion, the Ofﬁce of Inspector
planning and smart workplace.            September 2004 announcement of           General continues its efforts to
The “Directorate Excellence” initia-     the transfer of certain investigative    maintain America’s conﬁdence in
tive ensures greater deﬁnition of        responsibilities from the U.S. Postal    its mail service while improving the
roles and responsibilities at middle     Inspection Service to the Ofﬁce of       bottom line.
management levels. “Expert Plan-         Inspector General (OIG), in February
ning” analyzes planning activities       2005, the Deputy Postmaster
and identiﬁes strengths and areas        General shifted resources between
for improvement. “Smart Workplace”       both organizations. These changes
provides guidelines and project          are designed to enhance the value
management tools that help improve       of each organization to the Postal
productivity and accountability and      Service and its customers. In
achieve optimal operational efﬁciency.   August, ﬁnal decisions about the




                                                                                     October 1, 2004,
                                                                                          October     through
                                                                                                  1, 2004     March31,
                                                                                                           – March      2005| i| i
                                                                                                                    31,2005
SUMMARY OF PERFORMANCE
October 1, 2004 – March 31, 2005


                                          AUDIT
                                          Reports issued........................................................................................................169
                                          Signiﬁcant recommendations issued ........................................................................49
                                          Total reports with ﬁnancial impact .............................................................................49
                                             Funds put to better use ...................................................................... $114,646,808
                                             Questioned costs1 ................................................................................ $17,090,638
                                             Unrecoverable costs............................................................................... $1,549,233
                                             Revenue impact ....................................................................................... $263,695

                                          TOTAL .................................................................................................... $133,550,374

                                          INVESTIGATIONS2
                                          Investigations completed ...................................................................................... 1,269
                                          Arrests .......................................................................................................................92
                                          Indictments/informations ......................................................................................... 102
                                          Convictions/pretrial diversions ...................................................................................23
                                          Administrative actions ..............................................................................................306
                                          Total ﬁnes, restitutions and recoveries ........................................................ $12,251,411
                                             Amount to Postal Service (included in total ﬁgure above) ........................ $3,521,640

                                          HOTLINE CONTACTS
                                          Facsimile – FAX ........................................................................................................ 318
                                          E-mail .................................................................................................................... 4,827
                                          Standard Mail...........................................................................................................709
                                          Voice mail messages ............................................................................................ 1,428
                                          Telephone calls ....................................................................................................13,157

                                          TOTAL CONTACTS ......................................................................................... 20,439




                                          1
                                              Includes unsupported costs of $22,837.
                                          2
                                              Statistics include joint investigations with the U.S. Postal Inspection Service and other federal law enforcement agencies.




         ii | Semiannual Report to Congress
TABLE OF CONTENTS

OVERVIEW ..................................................................................................................2
‘DELIVERING RESULTS’ STAR REPORT.....................................................................3
      Strategy: Improving Service ..................................................................................3
      Strategy: Managing Costs .....................................................................................5
      Strategy: Developing People ............................................................................... 15
      Strategy: Growing Revenue ................................................................................ 17
      Strategy: Pursuing Reform .................................................................................. 19
PRESERVING INTEGRITY AND SECURITY ..............................................................22
      Investigative Activities ..........................................................................................22
      Oversight of Investigative Activities and Security ................................................. 25
   Security ...............................................................................................................26
ORGANIZATIONAL CHART ....................................................................................... 28
MAP OF OFFICE LOCATIONS ...................................................................................29
APPENDICES ............................................................................................................30
      APPENDIX A – Reports with Quantiﬁable Potential Monetary Beneﬁts ...............30
                            Report Listing .............................................................................35
      APPENDIX B – Findings of Questioned Costs.....................................................40
      APPENDIX C – Recommendations That Funds Be Put to Better Use ................. 41
      APPENDIX D – Reports with Signiﬁcant Recommendations Pending
                   Corrective Actions ...................................................................... 42
      APPENDIX E – Signiﬁcant Management Decisions in Audit Resolution ..............44
      APPENDIX F – Investigative Statistics..................................................................45
      APPENDIX G – Summary of Postal Service Investigative Activities
                   Under Title 39 USC § 3013.........................................................46
      APPENDIX H – Closed Congressional and Board of Governors Inquiries ........... 47
SUPPLEMENTAL INFORMATION ..............................................................................49
      Audit Synopses ...................................................................................................49
      Investigative Synopses ........................................................................................54
      Freedom of Information Act .................................................................................56
      Glossary .............................................................................................................. 57




                                                                                                                              October 1, 2004, through March 31, 2005 | 1
OVERVIEW
For this reporting period, the Semiannual Report to Congress revisits the Postal Service’s progress on its ﬁve strategic
goals — Improving Service, Managing Costs, Developing People, Growing Revenue, and Pursuing Reform. Internally, it
is called the ‘Delivering Results’ STAR. This semiannual report provides an overview of the Postal Service’s programs
and operations.


                    ‘DELIVERING RESULTS’ STAR                               ■   Pursuing Reform — The Postal Service’s
                                                                                goal for pursuing legislative reform is to obtain
                     REPORT                                                     greater ﬂexibility to improve service. A growing
                     Over the past year, the Postal Service made                number of members of Congress and the
                     signiﬁcant progress towards meeting some of its            mailing community believe that the postal
                     major strategies for Improving Service, Managing           business model is broken and Congress must
                     Costs, Developing People, Growing Revenue                  act quickly or the Postal Service will face
                     and Pursuing Reform. The Postal Service should             economic disaster.
                     continue to explore all opportunities to make
                     progress towards these strategies to ensure efﬁ-
                     cient operations and maintain reasonable prices        PRESERVING INTEGRITY AND
                     for its customers.
                                                                            SECURITY
                     Following is a summary of the strategies in this       Integrity is an essential element for safeguarding
                     report.                                                postal products, customers, services and assets,
                     ■   Improving Service — The Postal Service is          and, ultimately, for maintaining a stable and sound
                         striving to enhance its service through several    Postal Service. Breaches of integrity pose an
                         customer service and delivery operations           inherent risk due to the size and diversity of the
                         initiatives. New product and service initiatives   organization. This chapter explores OIG work in
                         continue to make it quicker, easier and more       the area.
                         convenient for customers to do business with
                         the Postal Service.
                                                                            ORGANIZATIONAL CHART
                         Managing Costs — The Postal Service is
                                                                            AND OFFICE LOCATIONS
                     ■
                         expected to provide timely, reliable delivery of
                         the mail. It is also expected to provide service   These two pages show the OIG organizational
                         as efﬁciently as possible, while charging          chart and ofﬁce locations as of March 31, 2005.
                         reasonable prices. Productivity improvements
                         over the last ﬁve years resulted in signiﬁcant
                         cost savings and are helping the Postal Service
                         achieve this strategy.                             APPENDICES
                     ■   Developing People — The Postal Service’s           The appendices align the OIG’s body of work with
                         strategy is maintaining an accountable, moti-      the Postal Service’s Transformation Plan. This
                         vated, and diverse workforce, empowered to         semiannual report section fulﬁlls the requirements
                         maximize performance in a safe and secure          of the Inspector General Act of 1978 to summa-
                         work environment. It has set clear objectives      rize OIG activities during the six-month period
                         for building an environment that is healthy,       ending March 31, 2005.
                         prosperous and inclusive.
                     ■   Growing Revenue — The Postal Service’s
                         strategy for growing revenue is to enhance its
                                                                            SUPPLEMENTAL INFORMATION
                         core services to provide greater value to its      This section includes brief synopses of each
                         customers. The challenge the Postal Service        audit and selected investigations and Freedom
                         faces is that the number of mail deliveries is     of Information Act activities that were completed
                         rising and the average number of pieces, per       between October 1, 2004 and March 31, 2005. It
                         delivery, is increasing.                           also includes a glossary.


 2 | Semiannual Report to Congress
                                                                                                                                       STRATEGY: IMPROVING SERVICE
‘DELIVERING RESULTS’ STAR REPORT
The U.S. Postal Service has made               the progress the Postal Service has
notable progress in transforming itself to     made towards meeting its major strate-
meet the challenges of the 21st century.       gies for Improving Service, Managing
Over the last three years, it has made         Costs, Developing People, Growing
signiﬁcant improvements in operational         Revenue, and Pursuing Reform.
efﬁciency which resulted in estimated
savings of $4.3 billion. At the same
time, the Postal Service has provided          STRATEGY:
record-breaking service to its customers
and attained high employee satisfaction
                                               IMPROVING SERVICE
scores. The Postal Service has also            The Postal Service is striving to
enhanced its core products and services        enhance customer satisfaction through
to mitigate declining revenues from the        several customer service and delivery
loss of First-Class Mail volume.               operations initiatives designed to make
                                               it quicker, easier and more convenient
While these accomplishments are                for customers to do business with the
noteworthy, they do not guarantee the          Postal Service. For example, the Postal
long-term viability of the Postal Service.     Service has introduced about 2,500
The Postal Service must continue to            Automated Postal Center (APC) kiosks
streamline its vast processing, distribution   nationwide. These award-winning kiosks
and transportation networks to ensure its      offer customers a wide range of postal
resources are allocated efﬁciently.            retail services and, in many cases,
                                               24-hour service.
Expanding delivery networks challenge
the Postal Service every day to allocate       Enhance Customer Service
the workforce optimally. The Postal
Service must also ﬁnd ways to reduce
                                               Operations
the signiﬁcant costs associated with           The Postal Service is ﬁnanced through
workplace injuries and create safer work       revenue generated by its products and
environments in an increasingly auto-          services and is addressing the shifting
mated world. Marketing and product             demographics and changes in lifestyle
development have become critical to            and behavior of postal customers by
increasing revenues. Finally, effective        utilizing new technology to improve
in FY 2006, Congress must determine            access to products and services.
whether it will release billions of dollars
of escrowed funds that were intended           To encourage greater market growth,
for Postal Service operations but were         the Postal Service expanded access to
sequestered under Public Law 108-              its products and services with vending
18, the Civil Service Retirement Fund          machines, APCs, Stamps Online, and
Escrow account.                                Click-N-Ship. The OIG has conducted
                                               — and is presently conducting — audits
Each of these areas represent signiﬁcant       to assess whether the Postal Service’s
challenges to the health and long-term         alternate access to products and
well-being of the Postal Service. The          services will enhance customer service
Ofﬁce of Inspector General (OIG) has           and increase revenue.
partnered with the Postal Service in
tackling these challenges. This Semi-          Customer Self-Service. Self-Service
annual Report to Congress reports on           Vending Machines give customers a




                                                                                         October 1, 2004, through March 31, 2005 | 3
                                        convenient alternative for purchasing         to handle undeliverable mail. Incorrect
                                        stamps and other basic Postal Service         address information increases mail
                                        products during and after business            processing operating costs and adversely
                                        hours. Nationwide, the Postal Service         impacts customer service due to the
                                        maintains approximately 30,000 vending        diminished value of information for busi-
                                        machines (27,000 self-service postal          ness mailers.
                                        centers and 3,000 other types of vending
                                        equipment) that generate more than            Improve Delivery Operations
                                        $1.9 billion in revenue. The OIG assessed     The Postal Service requires a signiﬁcant
                                        the vending program and recommended           infrastructure investment to meet its
                                        that area and district ofﬁcials improve the   universal service obligation to deliver
                                        program’s effectiveness and efﬁciency         millions of pieces of mail daily. Delivery
                                        by relocating equipment that does not         extends to more than 142 million delivery
                                        meet minimum revenue requirements,            points, involving approximately 290,000
                                        and possibly reduce maintenance and           city and rural letter carriers and more than
                                        repair costs by discontinuing the use of      6,000 box delivery highway route contrac-
                                        obsolete equipment.                           tors to deliver the mail.
��������������
�����������������                       The OIG is currently assessing the            The Postal Service estimates an increase
                ������������            Vending Equipment Sales and Service           of 1.8 million delivery points in FY 2005,
                ���������
                ��������                (VESS) System. VESS is an online              mostly in rural areas. The Postal Service
                ��������                database that offers real-time tracking of    has, thus far, managed this continued
                                        product sales, miscellaneous costs, and       delivery point growth and improved its
                �������
                �������������           maintenance and service for the vending       delivery operations with these initiatives.
                ��������������          machines. Postal ofﬁcials use VESS
       �����������������������          information to ensure that revenue goals      Improving Data for Decision-Making.
                                        are achieved and workhour costs remain        The Postal Service improved delivery by
                                        within speciﬁed guidelines.                   implementing both the Delivery Opera-
                                                                                      tion Information System (DOIS) and the
                                        The OIG is also assessing the APC             Managed Service Points (MSP) tools. The
                                        deployment strategy. The Postal Service       importance of these systems is to provide
                                        deployed 2,500 APCs in FY 2004, in            delivery supervisors and managers with
                                        an effort to move simple transactions         data (such as workload status reports
                                        to Post Ofﬁce lobbies and create a new        and carrier performance information),
                                        low-cost alternative to the postal counter.   to improve daily delivery operational
                                        The Postal Service invested more than         performance, and to allow supervisors
                                        $95 million in the deployment. As of          and managers to determine the number
                                        March 2005, these APCs have generated         of workhours required to deliver the mail
                                        more than $169 million in revenue for the     on daily carrier routes.
                                        Postal Service. The Postal Service has
                                        plans for a second phase of the APC           The development and training for the
                                        program project during FY 2005.               delivery route optimization tool, Carrier
                                                                                      Optimal Routing (COR), was completed in
                                        Address Management. The OIG                   April 2004. COR is a computer program
                                        plans to further assist the Postal Service    that: (1) conﬁgures compact contiguous
                                        in improving customer satisfaction by         routes; (2) determines safe and efﬁcient
                                        reviewing the Address Management              travel patterns; (3) determines relays
                                        System, which enhances mail processing        based on actual volume; and (4) reduces
                                        and delivery efﬁciency. The Postal Service    park points, mileage, and workhours.
                                        spends more than $1 billion annually          However, as a result of an agreement




        4 | Semiannual Report to Congress
                                                                                                                                                  STRATEGY: IMPROVING SERVICE
between the Postal Service and the             Rural Delivery Operations to remind rural
National Association of Letter Carriers        delivery managers to maintain proper
union, a nationwide moratorium was             timekeeping procedures and complete
placed on route inspections from April         timecard audits as a way to target
through December 2004, and the Postal          problem areas and identify areas for
Service did not conduct route inspec-          improvement.
tions or use COR during that period. The
Postal Service started performing route        Overseas Military Absentee Ballots.
inspections again in January 2005 and          During the 2000 national election, there
will begin to use COR to adjust routes         were highly publicized reports of delays
where appropriate.                             and uncounted military absentee ballots.
                                               As a result, during the 2004 national
Sorting and Delivering. The Flats              election, the Postal Service and the
Sequencing System (FSS) and Delivery           Department of Defense combined efforts
Point Packaging (DPP) are two delivery         to expedite the processing and delivery
strategies that the Postal Service             of absentee ballots to and from overseas
continues to research and develop.             military Post Ofﬁces.
Currently, carriers sort ﬂats manually in
delivery cases, but the FSS automates          At the request of the Postal Service,
that process and even puts the ﬂats in         Vice President of Network Operations
delivery order. In July 2004, fabrication      Management, the OIG assessed the
and in-plant testing of prototypes for the     Postal Service’s processing of overseas
FSS began and will continue through            military absentee ballots for the 2004
September 2005. DPP sorts letters              national election. The OIG conducted
and ﬂats into a single unit for delivery.      the audit in cooperation with the Postal
Technology concepts and methodolo-             Service’s International Transportation
gies were analyzed in FY 2004, and will        and Network Support group and the
continue in FY 2005.                           Intelligent Mail Implementation group.

Rural delivery service is the nationwide       The OIG concluded that the
network of mail routes serviced by rural       Postal Service succeeded
letter carriers. These carriers primarily      in expediting the processing
deliver and collect mail from roadside         and delivery of military
mailboxes owned and maintained                 absentee ballots and ensured
by residents in communities without            that absentee ballots were
convenient postal facilities. In the past      postmarked. However, some
ﬁve years, rural deliveries have increased     challenges remain in controls
18 percent. Management recognizes              over absentee ballots and
that more attention is needed to develop       compliance by local election
rural delivery policies and procedures         ofﬁcials with time frames for    Rural carriers deliver and collect mail from roadside mailboxes
and in October 2004, the Postal Service        delivering ballots.              owned and maintained by residents in communities without
                                                                                convenient postal facilities.
created the Rural Delivery Program Ofﬁce
to support rural operations. Reports
about rural route workhour usage, which        STRATEGY:
assist ﬁeld managers in analyzing overall
performance by ofﬁce and route, are
                                               MANAGING COSTS
now accessible electronically and have         The Postal Service is expected to
proven to be a valuable tool for identifying   provide efﬁcient service while charging
problem areas. The Postal Service also         reasonable prices. It uses Total Factor
reissued the guidebook titled Managing         Productivity (TFP) as an overall measure




                                                                                           October 1, 2004, through March 31, 2005 | 5
                                           of its efﬁciency, similar to the Multifactor       expenses increased from $63.9 billion in
                                           Productivity measure used by the U.S.              FY 2003 to $65.9 billion in FY 2004.
                                           Department of Labor. Postal productivity
                                           has improved over the last ﬁve years,              However, the $65.9 billion of actual
                                           resulting in signiﬁcant cost savings.              expenses was less than the
                                                                                              $66.8 billion in planned expenses for
                                           Because of these efﬁciencies and the               FY 2004. The reduction in actual versus
                                           cost reductions resulting from the Postal          planned expenses was due to control-
                                           Civil Service Retirement System Funding            ling costs.
                                           Reform Act of 2003 (Public Law 108-18),
                                           postage rates were last increased in               The Postal Service reduced its debt
                                           2002 and will not be increased any earlier         from $11.3 billion in FY 2001 to
                                           than 2006.                                         $1.8 billion in FY 2004, a reduction of
                                                                                              $9.5 billion. The Postal Service Civil
                                           Unless high-contribution mail classes              Service Retirement System Funding
                                           grow, postal rate increases in line with           Reform Act of 2003 signiﬁcantly
                                           economy-wide inﬂation will have difﬁculty          decreased the Postal Service’s funding
                                           producing enough revenue to cover all              requirements for Civil Service Retirement
                                           postal expenses, including fast-growing            System (CSRS) retiree beneﬁts. The
                                           health care costs.                                 legislation required the Postal Service
                                                                                              to use “cost savings,” (the difference
�����������������������                    The universal delivery network continues           between what would have been paid
                                           to expand at a rate of about 1.8 million           without the law and the required contribu-
                  ��������                 new deliveries a year. The growth of the           tions prescribed by the act), to maintain
                  �����������
                                           number of delivery addresses, coupled              current postage rates through 2005 and
                                           with increased costs for vehicle fuel and          to reduce outstanding debt in FYs 2003
                                           utilities for facilities, is increasing the cost   and 2004.
                   ������������            of operations.
                   ����������
                                                                                              Further, because of a complete overhaul
��������������������������������           In 2004, the Postal Service introduced the         of its debt portfolio in FY 2003, the Postal
                                           Evolutionary Network Development (END)             Service beneﬁted from both lower interest
                                           initiative. The goal of END is to create a         rates on short-term debt and the ﬂexibility
                                           ﬂexible processing and transportation              to daily repay debt with available cash.
                  ����������������         network that reduces Postal Service and
                  ������������
                                           customers’ costs, increases operational            A major beneﬁt of the lower debt was the
                                           effectiveness, and improves consistency            reduction in interest expense to its lowest
                   ���������������         of service.                                        amount since 1972. The Postal Service
                   ������������                                                               expects to further reduce its outstanding
���������������������������������          Postal Service Financial Position                  debt to approximately $800 million
           ����������������������          The Postal Service celebrated one of its           during FY 2005, and expects earnings on
                                           most successful ﬁnancial years in                  investments to exceed interest expense
                                           FY 2004, realizing more than $3 billion in         on its debt.
                                           net income. Further, the Postal Service
                                           eliminated $1.5 billion in costs during            From FY 2003 to FY 2004, the Postal
                                           FY 2004, bringing the total reduced costs          Service reduced the number of career
                                           over the last three years to $4.3 billion.         employees from 729,035 to 707,485,
                                                                                              and reduced workhours by 21 million.
                                           Revenues remained stable in FY 2004 at             This trend began in FY 2000 and has
                                           slightly under $69 billion, but operating          allowed the Postal Service to offset salary
                                                                                              increases due to raises in cost of living,




           6 | Semiannual Report to Congress
                                                                                                                                              STRATEGY: MANAGING COSTS
salary, and health beneﬁts by keeping         management’s ﬁnancial accounting
personnel costs relatively stable. The        policies and procedures conformed with
Postal Service has been able to accom-        accounting principles generally accepted
plish this while dealing with an expanding    in the United States and provided for an
delivery network. In addition, workers’       adequate internal control structure. Also,
compensation costs were reduced by            the OIG did not identify any instances
more than $230 million in FY 2004, due        of noncompliance with laws and regula-
to a reduction in the number of medical       tions that have a direct and material
claims and a decrease in the cost per         effect on the ﬁnancial statements.
claim. The Postal Service noted these
lower costs were a result of its multi-year
efforts to prevent on-the-job injuries.       City Letter Carrier Operations
                                              Controlling delivery costs is neces-
The Postal Service has done a                 sary as the Postal Service continues
commendable job of managing costs.            to experience increases in delivery
Nevertheless, without signiﬁcant reform       points (addresses) each year. There
these cost-cutting measures alone will        is an expectation that delivery point
not give the Postal Service the resources     growth will continue to increase annu-
necessary to meet its mission. There          ally as the population grows. Higher
appears to be signiﬁcant support for          revenue-contribution mail volume, such
postal reform, but ﬁnal details of what       as First-Class Mail, has continued to
the legislation will include have not         decline as the public increases its use
yet been determined. For example,             of alternative means of messaging,
Congress needs to decide whether the          although overall revenue
Postal Service should carry the burden        has increased slightly due
of funding military service pension           to volume increases in
costs not levied against other federal        other mail classes.
government agencies and how certain
CSRS “savings” should be used. These          Delivery operations
decisions will have a signiﬁcant impact       accounted for 45 percent
on how the Postal Service will manage         of the Postal Service’s total
future costs.                                 labor hours in the FY 2005
                                              ﬁeld operating budget.
Internal Controls and Accuracy                These are hours city and
                                              rural letter carriers spend
of Financial Reporting                        casing mail in the ofﬁce and
As part of the overall audit of the Postal    delivering mail on routes.      An OIG audit noted that management can improve operations by
Service ﬁnancial statements, using a                                          adequately reviewing the daily mail volumes when determining daily
stratiﬁed sampling plan, we selected          In FY 2005, salaries and        workhours for each carrier’s route to maintain efﬁciency and cost.
and reviewed 77 Post Ofﬁces, Business         beneﬁts for city carriers are
Mail Entry Units (BMEUs) and Self-            budgeted at more than $16 billion, with
Service and Automated Postal Centers.         a budget performance goal of reducing
The audits revealed that ﬁnancial             city delivery workhours by 4.5 million.
transactions were reasonably and fairly       The Postal Service is making efforts to
presented in the accounting records           improve delivery efﬁciency with stan-
and, generally, internal controls were        dardization of city delivery operations,
in place and effective. In addition, our      in order to manage delivery workhours.
audits at Postal Service headquarters         In FY 2004, the Postal Service began
and the Information Technology and            implementing AM Standard Operating
Accounting Service Centers revealed           Procedures (AM SOP). These new




                                                                                            October 1, 2004, through March 31, 2005 | 7
                                        morning management procedures assist            percent of the total federal workforce that
                                        managers and postmasters in making              participated. The Postal Service was also
                                        better business decisions for city delivery     the largest payor to OWCP, with approxi-
                                        operations (e.g., more accurately esti-         mately $830 million in payments for the
                                        mating daily workhours needed).                 same year.

                                        The OIG assessed the management                 The OIG examined a contract between
                                        of city letter carrier operations in three      the Postal Service and a preferred
                                        delivery units in the Rio Grande District.      provider organization supplying injury
                                        The audit noted that management                 compensation medical bill review
                                        can improve operations by adequately            services. The review determined and
                                        reviewing the daily mail volumes when           veriﬁed the cost savings claimed and
                                        determining daily workhours for each            realized by the Postal Service. The Postal
                                        carrier’s route to maintain efﬁciency and       Service realized $2.2 million in cost
                                        cost. Additionally, delivery unit supervisors   savings due to the contractor’s billing
                                        and managers did not adequately match           reviews from March 2001 through July
                                        workhours with workload (mail volume),          2004. Although the cost savings was
                                        resulting in 2,543 unjustiﬁed workhours         not the annual $30 million the Postal
                                        during October 2003 through February            Service anticipated, they are working
                                        2004, valued at $92,762 in unrecoverable        with DOL and the contractor to improve
                                        costs. The OIG is expanding its assess-         the program.
                                        ment of city letter carrier management to
                                        the Paciﬁc and Great Lakes Areas.               The OIG also reviewed the OWCP federal
                                                                                        medical fee schedule for its impact on
                                        Letter Carrier                                  the Postal Service’s medical costs.
                                                                                        Medical services covered by the fee
                                        Compensation Models                             schedule include payments for medical
                                        The Postal Service and its associated           and other health services furnished by
                                        unions use collective bargaining and            physicians, hospitals, and other health
                                        compensation models on reach agree-             care providers for work-related injuries.
                                        ment to city and rural letter carriers’         OWCP regulations state that these costs
                                        compensation. Compensation for box              shall not exceed a maximum allowable
                                        delivery highway contract route (HCR),          amount for such services, as determined
                                        or contract carriers, is established via the    by the Director, OWCP.
                                        contract the Postal Service enters into
                                        with private individuals or ﬁrms. The OIG       The OIG concluded that, overall, the
                                        will examine issues pertaining to these         medical fee schedule had a positive
                                        three letter carrier models to determine        impact on the Postal Service’s medical
�����������������������                 whether lower cost alternatives exist.          costs. The OWCP paid medical providers
                  ��������                                                              about $528 million less than the amount
                  ������������                                                          providers billed for chargeback years
                                        Workers’ Compensation Costs                     (1997 to 2003). Further, although some
                                        A signiﬁcant continuing cost for the            medical charges did not have maximum
                  �����������           Postal Service is compensation for              allowable amounts established, the
                  �������������
                                        injured workers. Due to the size of their       OWCP independently reviewed the
     ���������������������������
                                        bargaining unit workforce, the Postal           charges, resulting in payments made at or
                                        Service is the largest participant in the       below what the providers billed.
                                        Department of Labor’s (DOL) Ofﬁce
                                        of Workers’ Compensation Programs               The OIG is also completing a review of the
                                        (OWCP) in 2004, representing about 30           Postal Service’s schedule award costs.




        8 | Semiannual Report to Congress
                                                                                                                                                      STRATEGY: MANAGING COSTS
The Federal Employees’ Compensation           near-term chal-
Act (FECA) provides for the payment           lenges facing the
of workers’ compensation beneﬁts to           Postal Service’s
civilian employees (including Postal          END initiative.
Service employees) for speciﬁed periods       These included:
for the permanent or temporary loss of        (1) completing
use for certain members, organs, and          a blueprint to
functions of the body. Payment is made        govern network
for a speciﬁed number of days or weeks        changes; (2)
based on the severity of the impairment.      developing a
This compensation beneﬁt is deﬁned as a       comprehensive
                                                                   The END initiative is the next step in the Postal Service’s efforts to
schedule award.                               and integrated       create a ﬂexible logistics network to reduce costs, increase overall
                                              plan; (3)            effectiveness, and improve consistency of service.
Evolutionary Network                          identifying and
                                              obtaining resources needed to incremen-
Development                                   tally implement network optimization; and
Most mail is sorted either by using high-     (4) developing a formal process to imple-
speed automated equipment or entered          ment the initiative and evaluate results.
into the mailstream through mailer work-      The OIG will continue to work with the
share programs, requiring less handling       Postal Service on this critical project.
by the Postal Service. This has led to
excess capacity in the network. More-         Verifying and Validating the END
over, with ﬂat or declining mail volume in    Models. As part of the END initiative,
some classes and market shifts, there         the Postal Service assembled a team
is less need for dedicated, class-based       to conduct an independent veriﬁcation
networks that support class-deﬁned mail-      and validation of the END models. At
streams such as First-Class Mail, Parcels     the request of the Postal Service, a
and standard packages, and Priority Mail.     member of the OIG served in an advisory,
                                              ex ofﬁcio role for the team. The OIG’s
Today’s climate offers the Postal Service     suggestions helped formulate the process
an opportunity to redesign and consoli-       for conducting this veriﬁcation and valida-
date the processing and distribution          tion effort and benchmarking research.
network, further simplifying the transpor-    The OIG issued a report in this reporting
tation network by reducing the number of      period explaining its role in assisting the
transportation routes.                        Postal Service’s independent veriﬁcation
                                              and validation team.
At the 2004 National Postal Forum,
Postmaster General and CEO John Potter        Closing, Consolidating, and
announced the Evolutionary Network            Realigning Facilities. The Postal
Development (END) initiative — the            Service reported that, as part of the END
next step in the Postal Service’s efforts     initiative, it closed more than 50 facilities
to create a ﬂexible logistics network to      and annexes; closed 38 remote encoding
reduce costs, increase overall effective-     centers; and consolidated some distribu-
ness, and improve consistency of service.     tion operations. During this period, the
The END initiative has the potential to       Postal Service and the OIG worked
impact $26 billion in processing, distribu-   together in the Northern Ohio District to:
tion, labor, and transportation costs.
                                              ■   Improve the efﬁciency of operations
The September 30, 2004, Semiannual                at the Akron, Ohio, Processing and
Report to Congress covered several                Distribution Center (P&DC) by reducing




                                                                                                        October 1, 2004, through March 31, 2005 | 9
                                     235,000 workhours. This reduction         The Postal Service also moved more
                                     could produce a cost avoidance of         than 200 million trays, 100 million sacks,
                                     about $74 million over 10 years.          and approximately 2.5 million rolling
                                                                               containers.
                                 ■   Improve network efﬁciency and
                                     potentially upgrade delivery service by   The Postal Service must control costs,
                                     recommending the Mansﬁeld, Ohio,          and one of the greatest opportunities to
                                     Main Post Ofﬁce’s outgoing mail oper-     reduce costs is optimizing its contract-
                                     ations be moved to the Akron P&DC,        intensive transportation and logistics
                                     saving 28,000 workhours. The OIG          networks. The Postal Service must
                                     also identiﬁed opportunities to improve   ensure that its networks, which cost the
                                     operational efﬁciencies by reducing       Postal Service more than $6 billion annu-
                                     24,000 mail processing workhours          ally, are efﬁcient, responsive, and leverage
                                     at this Post Ofﬁce. These reductions      information to optimally align transporta-
                                     could help avoid costs of $17.2 million   tion resources.
                                     over 10 years.
                                                                               Optimizing the Transportation
                                 The END initiative focus is on realigning     Network. The OIG examines the secu-
                                 various networks, developing and              rity, effectiveness and economy of its mail
                                 retroﬁtting processing equipment, and         transportation via the air, highway, rail,
                                 implementing the proposed bulk mail           maritime, and logistical support networks.
                                 center (BMC) retroﬁt transition effort.       Its most recent efforts addressed:
                                 The retroﬁt effort may redeﬁne BMCs
                                 as regional distribution centers for all      ■   Underutilized or Redundant Highway
                                 parcels and bundles, functioning as               Trips. A major component of the Postal
                                 part of the Hub-and-Spoke Program                 Service’s infrastructure is the Bulk
                                 (HASP) network.                                   Mail Center (BMC) network. Bulk mail
                                                                                   includes advertising mail, catalogs, and
                                 The Postal Service and the OIG will               large quantities of identical merchan-
                                 continue to jointly identify opportunities        dise shipped by major mailers such
                                 to improve operations and reduce costs.           as publishers, catalog companies and
                                 The OIG plans to assess portions of the           on-line retailers. Bulk mail is processed
                                 END initiative, covering systems under            by a system of 21 BMCs and other
                                 development and facilities issues. The            facilities nationwide. The Postal Service
                                 OIG will continue to review the interna-          spends more than $500 million annu-
                                 tional service center and domestic mail           ally on contracts to transport bulk mail
                                 processing networks for efﬁciency and             over highway networks.
                                 consolidation opportunities.
                                                                                   The OIG is evaluating scheduled
                                                                                   BMC highway transportation routes
                                 Transportation and Logistics Costs                for effectiveness and identifying
                                 Transporting mail and equipment                   opportunities for cost savings. To date,
                                 between processing plants and Post                OIG and Postal Service ofﬁcials have
                                 Ofﬁces is one of the Postal Service’s             identiﬁed 183 BMC transportation trip
                                 core operations and is essential to its           eliminations, consolidations, or modiﬁ-
                                 success. Last year, the Postal Service’s          cations, potentially resulting in savings
                                 vast transportation and logistics networks        of more than $19 million over the life of
                                 moved more than 206 billion pieces                the contracts. The Postal Service elimi-
                                 of mail — having a multitude of mail              nated or modiﬁed most of the 183 trips
                                 classes, shapes, and service standards.           without negatively affecting service




10 | Semiannual Report to Congress
                                                                                                                                                       STRATEGY: MANAGING COSTS
    or operational ﬂexibility because mail         $7.2 million. Because not all postal
    volume was low and mail could be               facilities complied with headquarters’
    consolidated on other trips.                   policy to reuse serviceable equipment,
                                                   they missed an opportunity to save
■   Effectiveness of Air Network                   an additional $1.4 million. However,
    Operations. Air networks are a vital           there is still an opportunity to save an
    part of the overall transportation             additional $628,000 over the next two
    network. The OIG recently assisted             years, if postal facilities implement
    the Postal Service in addressing mail          the policy.
    backlog at the Hartsﬁeld-Jackson
    Atlanta International Airport, based on    As the Postal Service transforms its
    a postal employee’s tip concerning         infrastructure through END and other
    signiﬁcant mail backlog during             initiatives, it must ensure that the
    the height of the December 2004            transportation network responds to
    holiday season. OIG auditors rapidly       changing transportation requirements
    responded and found an estimated           and demands. To aid this effort, the
    200,000 to 400,000 pounds of               Postal Service is implementing the
    Express, Priority, and First-Class Mail    Surface Visibility initiative. Currently, only
    staged (sitting) at one time on the        rough estimates of surface transportation
    airport tarmac awaiting transportation     volume are available to postal managers
    by a commercial airline — some mail        to make decisions about transportation
    sat for eight days.                        needs. The Postal Service envisions that
                                               Surface Visibility will produce accurate,
    The backlog, which occurred after a        complete, and reliable mail volume data
    major snowstorm required rerouting         enabling managers to make timely deci-
    the mail through Atlanta, was further      sions about the surface transportation
    compounded by a computer failure           network. The OIG
    and the seasonal increase in passen-       will work with the
    gers and luggage. The Postal Service       Postal Service to
    incurred unanticipated costs to reroute    evaluate the success
    the mail. In addition to the actions the   of this initiative.
    Postal Service was already taking, the
    OIG recommended that the Postal            As noted earlier,
    Service, among other things, assess        the transportation
    commercial air transportation contract     network is ﬂuid
    penalties. Management agreed with          and dynamic. For
    our recommendations.                       instance, the Postal
                                               Service recently
■   Mail Transport Equipment Service           announced that it
    Center Network — Equipment                 would no longer
    Processing. The OIG followed up on a       use two air contract      Air networks are a vital part of the overall transportation network.
    2001 mail transport equipment audit        carriers for commer-
    report to determine whether the Postal     cial air transportation
    Service saved money by requiring           because of service issues. Although the
    facilities to reuse serviceable equip-     Postal Service subsequently allowed
    ment rather than return it to service      the carriers to resume transportation on
    centers. The OIG concluded that the        a limited basis, the action required the
    Postal Service took aggressive action      Postal Service to evaluate all options
    to implement this recommendation           and balance service and cost. The OIG
    and, as a result, saved more than          will help the Postal Service ensure that




                                                                                                        October 1, 2004, through March 31, 2005 | 11
                                            network disruptions do not affect service                smartly adapt new technology to maintain
                                            and that viable and cost-efﬁcient alterna-               its competitive position in the market;
                                            tives are examined and adopted.                          however, the downstream cost control
                                                                                                     potential for automation investments is
                                            Vehicle Maintenance Facilities                           signiﬁcant for operations.
                                            The Postal Service supports its
                                            delivery network with a vehicle ﬂeet                     Long-Term Vision. The Postal Service’s
                                            and vehicle management infrastructure                    long-term vision is to automate the
                                            that ensures operational readiness,                      sorting of more mail in delivery order for
                                            safety, and reliability. The OIG has                     a given route (e.g., sort letters and ﬂats
                                            played — and continues to play — an                      [oversized letters] together, place them
                                            extensive role in identifying opportuni-                 in a single bundle, and deliver them to
                                                        ties for vehicle managers                    an individual address). While ﬂat-shaped
                                                           to improve management                     mail represents nearly 30 percent of
                                                             controls.                               the Postal Service volume, most ﬂats
                                                                                                     continue to require sorting by carriers. The
                                                                           Vehicles are serviced     Postal Service’s ﬂats strategy, which is
                                                                               and repaired          modeled after technology investments for
                                                                                 in 322 Postal       increasing efﬁciencies for letters, identiﬁes
                                                                                 Service vehicle     the near- and long-term investments being
                                                                                 maintenance         pursued by the Postal Service and high-
                                                                                 facilities (VMFs)   lights the areas of likely customer impact.
                                                                                 and in commer-
                                                                                cial garages         Future plans also include mail coding
Vehicles are serviced and repaired in 322 Postal Service vehicle maintenance
facilities (VMFs) and in commercial garages throughout the country.             throughout           and tracking through Intelligent Mail that
                                                                                the country.         captures and shares information about
                                                 Economical maintenance of the vehicle               each mailpiece throughout the postal
                                                 ﬂeet ensures parts and materials required           system. This will help the Postal Service
                                                 for maintenance actions are readily avail-          compete in a marketplace where informa-
                                                 able when needed.                                   tion about mail is becoming increasingly
                                                                                                     more important to its customers.
                                            The OIG assessed the controls used to
                                            manage vehicle parts inventories and                     Competitors have built their businesses,
                                            maintain appropriate inventory stock                     in part, by recognizing the need to provide
                                            levels in the Atlanta District and deter-                more real-time access to processing and
                                            mined that the two VMFs did effectively                  delivery information. The Postal Service
                                            manage controls over inventories and                     expects Intelligent Mail to stimulate
                                            inventory stock levels. In addition, the OIG             revenue growth, reduce operating costs,
                                            is assessing the management of vehicles                  and enhance mail security. An audit of
                                            used to support delivery operations in                   the intelligent mail data acquisition system
                                            selected Postal Service areas.                           is under way for FY 2005. This system is
                                                                                                     a replacement initiative for mobile data
                                            Using Technology                                         collection devices that supported delivery
                                                                                                     operations. The OIG will continue to eval-
                                            to Increase Efﬁciency                                    uate technology investments supporting
                                            The Postal Service depends on automa-                    intelligent mail coding and tracking.
                                            tion technology to process and sort more
                                            than 650 million pieces of mail daily to                 Maximizing Innovation. The Postal
                                            more than 142 million addresses. Like                    Service has a long history of testing
                                            many organizations, it is challenged to                  innovative methods in distribution,




           12 | Semiannual Report to Congress
                                                                                                                                     STRATEGY: MANAGING COSTS
delivery and transportation systems, and     reviews will aid Postal Service efforts to
continues to invest research and devel-      manage costs by allowing more efﬁcient
opment funds to enhance operational          data center report distributions that could
efﬁciencies. The OIG will continue to look   result in a $3.2 million cost savings.
at new technology and initiatives being
developed to ensure efﬁciency enhance-       The OIG assists in validating this ﬁnancial
ments are economical and attainable.         knowledge base by annually performing
                                             an information systems general controls
For FY 2005, the OIG is auditing             review. The OIG’s latest review concluded
large technology investments that            that controls over systems, data, and
support Transformation Plan efﬁciency        computer-related infrastructure at the
goals, including automated package           Information Technology and Accounting
processing systems, ﬂats identiﬁcation       Service Centers generally provided
code sorters, ﬂats recognition improve-      reasonable assurance that data were
ment programs, and ﬂats sequencing           accurate, complete, and secure; data
systems. The value of these investments      integrity was ensured; and business
in this period is anticipated to be more     practices complied with Postal Service
than $1 billion.                             policies, procedures, and standards.

Increasing Availability of Technology        However, additional controls and actions
to Customers. The Postal Service is          were needed in the areas of online
operating within a highly competitive        payroll application access; business
marketplace and is using technology          unit continuity plan documentation and
wherever possible to enhance the             testing; career Postal Service employee
value of its products and services for       security clearance updates; electronic
customers. The Postal Service has            data interchange policies, procedures,
outlined opportunities to enhance retail     and password security; the Oracle public
access and encourage the growth of           role; Windows 2000 server conﬁguration
postal products and services as part         settings; and Windows NT server status.
of its overarching strategy of fostering     The issues surrounding these ﬁndings
growth through customer value. Certain       have been corrected or targeted for
Postal Service initiatives support their     priority resolution.
commitment to expand customer access
to postal services, enhance operational      Supply Chain Management
efﬁciency, and strategically apply
technology to provide Postal Service         Business Practices
customers with convenient alternatives by    The Postal Service manages contracts
moving transactions away from the retail     with commitment values totaling more
counter. During this reporting period,       than $25 billion annually. The Postal
the OIG issued audit reports on those        Service issued over 39,000 contract
initiatives, which include: APC program      actions with commitment values
management, vending machine services,        exceeding $6.8 billion during FY 2004
and the online Click-N-Ship self-service     and has, over the years, implemented the
mailing application.                         supply chain management philosophy to
                                             maximize the effectiveness and efﬁciency
Availability of Information. The             of these expenditures.
Postal Service moves one step closer to
bringing operational costs and revenue       The Postal Service’s challenge in this area
into balance each time cost savings          is controlling and reducing costs while
and efﬁciency issues are identiﬁed and       maintaining efﬁcient acquisition practices
realized. The OIG’s operational efﬁciency    with effective controls to prevent fraud,



                                                                                      October 1, 2004, through March 31, 2005 | 13
                                   waste, and mismanagement. The Postal          establishes national contracts for agency-
                                   Service expanded the use of supply chain      wide use in order to reduce administrative
                                   management business practices to meet         effort, simplify the supply of common-use
                                   the Transformation Plan goal of continuing    items, and obtain discounts for buying in
                                   to implement and institutionalize supply      volume. The Postal Service spent almost
                                   chain management. For example, it             $71 million on the purchase of ofﬁce
                                   established several strategic partnerships    supplies, through a contract in ﬁscal year
                                   and expanded the use of web-based             2004, and estimated that it realized more
                                   ordering to help achieve its planned cost     than $15.7 million in item price savings
                                   reductions. However, it must continue to      by using the contract during that period.
                                   enforce measures that reduce the risk of      The OIG is working with Postal Service
                                   loss and ensure that it receives the best     management to determine the actual
                                   possible value from its purchases.            savings. The OIG also began reviewing
                                                                                 whether the Postal Service is effectively
                                   For example, the OIG identiﬁed                and efﬁciently awarding and administering
                                   opportunities to improve the program          national contracts to reduce overall costs
                                   management of APC acquisition.                and meet contractor diversity goals.
                                   Speciﬁcally, the Postal Service agreed
                                   with recommendations to develop and           The Postal Service revised its Purchasing
                                   document future APC requirements;             Manual to reduce regulation of its
                                   prepare schedules and cost estimates          purchasing policies and take advantage
                                   for planned upgrades not already on           of the ﬂexibility allowed under the Postal
                                        contract; complete site security         Reorganization Act. The Postal Service
                                        reviews; and ensure contractor           must ensure adequate oversight remains
                                       employees obtain appropriate              over the internal set of guidelines to
                                       security clearances. Additionally, the    reduce the risk of fraud, waste, and
                                      Postal Service agreed to coordinate        mismanagement in the acquisition
                                     the site selection process for future       process. The OIG will continue monitoring
                                     APCs with all affected stakeholders         purchasing policies.
                                         and to submit quarterly Decision
                                          Analysis Report (DAR) compliance
                                           reports that fully communicate        Management of Facility Costs
                                            missing APC functionality and        The Postal Service operates more than
                                            operational concept changes.         34,000 geographically dispersed facilities.
                                             The OIG plans to expand             Speciﬁcally, it owns more than 8,800 facil-
                                             program management reviews          ities; leases more than 25,400 facilities
                                             to include software acquisitions    (at a rental cost of approximately $946
                                            and will also determine whether      million per year); and occupies space
                                            the Postal Service is properly       in approximately 425 General Services
                                            planning for, and using, contract    Administration/federal facilities.
                                            types that can help reduce
                                            overall operating costs.             The Postal Service has identiﬁed oppor-
                                                                                 tunities to reduce costs or maximize the
                                            Additionally, due to congressional   return on property, including standardiza-
                                          interest, the OIG is reviewing the     tion of building design, post-occupancy
                                           efﬁciency of the Postal Service’s     evaluations of recently built facilities, and
     The OIG identiﬁed opportunities to
     improve program management of         use of a national ofﬁce supply        proactive leasing programs. It has also
     APC acquisition.                      contract. The Postal Service          developed a new prioritization system to




14 | Semiannual Report to Congress
                                                                                                                                       STRATEGY: DEVELOPING PEOPLE
ensure funding is available to address         perous, and inclusive environment. The
the most critical needs. The Postal            organization protects its diversity in the
Service must have an adequate process          work environment by conducting harass-
to monitor and track projects eligible         ment and discrimination awareness and
for rent reduction requests. With more         prevention programs.
than 25,400 leased facilities, this is a
critical ﬁrst step in reducing overall lease
operating costs. Additionally, to enhance      Enhance Workplace Environment
communication and to respond to repair         To successfully carry out its long-
and maintenance issues, the Postal             standing mission of providing affordable,
Service is implementing a single-source        universal service, the Postal Service
provider program for facility maintenance      relies on its 807,000 career and
and management needs.                          non-career employees. Employees
                                               satisfaction with their work environment
The OIG began performing post-                 is imperative to maximizing performance
occupancy evaluations of recently-built        in an increasingly competitive environ-
facilities and found both favorable and        ment. Consequently, the Postal Service
unfavorable variances between projected        strives to maintain a workforce that is
and actual building maintenance, custo-        effective, diverse, highly motivated, and
dial work hours, and utility costs. The OIG    recognized for individual and group
plans to perform additional post-occu-         accomplishments.
pancy reviews to assist management
in comprehensively evaluating the              Troubled Worksites. The Postal
reasonableness of the DAR projections,         Service has taken a number of steps
considering various facility sizes, loca-      to improve the work environment for its
tions, and other relevant factors. The OIG     employees. The Workplace Environment
also plans to review the Postal Service’s      Improvement Advisory Committee, which
processes for major construction and its       includes representatives of employee
implementation of a facility single-source     unions, management associations, labor
provider program.                              relations, and human resources, has
                                               identiﬁed “troubled worksites” based on
                                               established criteria. These worksites may
STRATEGY:                                      be susceptible to threatening or other
DEVELOPING PEOPLE                              undesirable behavior as a result of indi-
                                               vidual or systemic problems. The number
The Postal Service has one of the largest,     of troubled Postal Service worksites was
most diverse workforces in the nation and      reduced from 39 in 2002 to eight in 2004
relies heavily on its people to accomplish     as a result of proactive intervention and
its mission. The Postal Service’s strategy     resolution of workplace issues.
is maintaining an accountable, motivated,
and diverse workforce, empowered to            The OIG conducted six audits during
maximize performance in a safe and             this reporting period due to complaints
secure work environment.                       of hostile work environments at Postal
                                               Service worksites. The OIG found that
The Postal Service continues its strong        hostile work environments did not
commitment to diversity among its              exist at these sites; however, some
employees and suppliers. It has set clear      employees experienced events that they
objectives for building a healthy, pros-       perceived as hostile. The OIG also found




                                                                                        October 1, 2004, through March 31, 2005 | 15
                                            that Postal Service management quickly                process. Speciﬁcally, the Talent Acquisi-
                                            responded to employee complaints and                  tion Processing System (TAPS) was
                                            took the steps necessary to improve the               implemented to help maintain the integrity
                                            environment, including providing training             of the Postal Service’s testing process for
                                            and stand-up talks for employees                      hiring new employees. TAPS’ objective is
                                            and removing supervisors who acted                    supporting the dissemination, collection,
                                            inappropriately.                                      storage, and inventory of all test materials
                                                                                                  and test results.
                                                Diversity Issues. The Postal Service
                                                continues to lead private industry and            Personnel Systems. During 2004,
                                                                    federal government in         the Postal Service implemented a new
                                                                     diversity, equal employ-     web-based application to enhance
                                                                      ment opportunity,           employment opportunities throughout the
                                                                      veteran’s employment,       Postal Service. eReassign allows career
                                                                     afﬁrmative action,           bargaining unit employees to request
                                                                       and other programs         voluntary reassignments from one postal
                                                                        directed at improving     installation to another. According to the
                                                                         the workplace for        Postal Service, eReassign standardized
                                                                          everyone, including     the reassignment process, reduced
                                                                          women and minori-       processing cycle-time, and virtually elimi-
                                                                        ties. For example,        nated manual processing.
                                                                       for the ﬁfth straight
Employees satisfaction with their work environment is imperative to   year, Fortune magazine      The Postal Service improved account-
maximizing performance in an increasingly competitive environment.  named    the Postal Service   ability by including additional employees
                                                                    one of the nation’s “50       in the performance-based pay plan used
                                                Best Companies for Minorities.” In 2004,          to recognize individual and team efforts.
                                                Equal Opportunity Publications, Inc.,             In 2004, 78,000 non-bargaining unit
                                                ranked the Postal Service as one of the           employees joined approximately 800
                                                top 20 government agencies for indi-              executives in a new pay-for-performance
                                                viduals with disabilities, and Careers and        program that is based on the National
                                                the Disabled magazine gave the Postal             Performance Assessment (NPA) system.
                                                Service its outstanding employer award.
                                                                                                  The program sets performance goals for
                                            The Postal Service’s National Awards                  each individual based on that individual’s
                                            Program for Diversity Achievement, in                 position in the organization and the contri-
                                            existence since 1996, recognizes the                  bution of that position toward achieving
                                            outstanding individuals and teams that                corporate goals. A key component of
                                            encourage and promote diversity within                the new program is an objective-setting
                                            the organization. This year, the Altruism             process that approves individual objec-
                                            award has been added to provide an                    tives and allows employees to align
                                            opportunity to honor and recognize diver-             individual contributions with both unit and
                                            sity achievements of employees outside                corporate successes. The new program
                                            the work environment.                                 calculates end-of-year performance
                                                                                                  ratings based on individual achievements
                                            In addition to diversity and equal employ-            against targets, in addition to unit and
                                            ment opportunity initiatives, the Postal              corporate results. The new pay system
                                            Service enhanced a number of employ-                  is based solely on these performance
                                            ment tools to streamline its employment               ratings and there are no automatic or




           16 | Semiannual Report to Congress
                                                                                                                                    STRATEGY: GROWING REVENUE
across-the-board pay increases for exec-     Marketing Postal Products
utives or non-bargaining unit employees.     and Services
                                             To achieve its strategic goal for growing
STRATEGY:                                    revenue, the Postal Service has
GROWING REVENUE                              focused on four key marketing areas:
                                             Product Solutions, Value and Pricing,
The challenge the Postal Service faces       Channel and Servicing, and Promotion.
is that the number of mail deliveries        Speciﬁcally, the Postal Service plans
is rising and the average number of          to aggressively manage core products
pieces per delivery is increasing. The       and programs that offer the greatest
Postal Service’s products are primarily      revenue potential; use pricing ﬂexibility
mature services in dynamic, rapidly          as a strategic tool; manage the customer
growing markets that are impacted            experience using customer knowledge
by new communications technology             to make it easier to access information
and by changing business practices           and conduct transactions, pay for postal
and consumer attitudes. The Postal           services, and champion and communi-
Service’s strategy for growing revenue       cate the value of the Postal Service to
is to enhance its core services to           the marketplace through integrated and
provide greater value to its customers.      aligned communications.
The focus is on the customer and
delivering solutions.                        Product Solutions. Over the coming
                                             year, the OIG plans to help the Postal
The Postal Service relies on the sales       Service grow revenue by assessing its
of all its mail services to customers        efforts to manage core products that
to generate the revenue necessary to         offer the greatest revenue potential. The
support the expansion of the universal       OIG will review and assess key programs
delivery network. The prices of its          in Package Services and revitalized
products are set to cover costs. Since       initiatives in direct mail. The OIG also
2000, the Postal Service has substantially   plans to review programs that affect
reduced its debt levels. Future improve-     First-Class Mail.
ments in its ﬁnancial position depend
on the success of strategic marketing        Value and Pricing. Pricing innovation
initiatives, the growth of the economy,      is at the core of transformation efforts
competitor initiatives, and congressional    to maintain stable and affordable postal
action on pending legislation.               rates. Innovative pricing changes, such
                                             as negotiated service agreements (NSA),
Revenue to operate the Postal Service        provide pricing incentives for customers
is derived primarily from the sale of        in exchange for a shift in behavior by the
domestic and international mail services     customer that beneﬁts the Postal Service.
and is supplemented by special service       This sort of change has paved the way for
fees; money order sales; rents from          other NSAs and other experimental rate
Post Ofﬁce boxes; and sale of stamped        case ﬁlings that address the expressed
envelopes, mail-related supplies,            needs of mailers to maximize their invest-
merchandise, and philatelic items.           ment in mail as a key business tool.

                                             In 2003, the Postal Service entered
                                             into its ﬁrst NSA with Capital One




                                                                                     October 1, 2004, through March 31, 2005 | 17
                                              Services. During this reporting period,       postage technology initiatives such as
                                              the OIG audited Capital One’s NSA.            online postage meters and key programs
                                              The audit identiﬁed control weaknesses        including Customer Gateway and
                                              related to mail volume and revenue and        Customer Connect.
                                              determined that the Postal Service did
                                              not have a dedicated team throughout          Promotion. The Postal Service has
                                              the NSA process. The Postal Service           developed advertising and other
                                              agreed with the OIG’s recommenda-             promotional materials to direct
                                              tions to strengthen controls over the         customers to all retail points of access
                                              NSA process, providing an increased           and its website to ensure customers
                                              opportunity to grow revenue. The Postal       are aware of all available services.
                                              Service estimated that by the end of          The Postal Service provides other
                                              2004, this NSA-produced cost savings          value-added services to business
                                              and new contribution greatly exceeded         mailers such as the BSN, a nationwide
                                              rate case projections.                        network of representatives that provides
                                                                                            business mailers with a local point of
                                              The Postal Service has improved its           contact for resolving local concerns.
                                              International Customized Mail (ICM)
                                              agreements to produce new contribu-           To that end, the Postal Service has
                                              tions. ICM agreements are contracts           devised an integrated and aligned
                                              between the Postal Service and mailers        promotion strategy to communicate the
                                              for a period of one or more years             value of its services to the marketplace.
                                              and represent individually negotiated         The OIG plans to review key programs
                                              discounts with mailers, within certain        associated with product promotion
                                              categories of outbound international          and sales to include sponsorships and
                                              mail, in exchange for meeting prescribed      corporate advertising, as well as afﬁlia-
                                              annual minimum revenue or volume              tions and alliances.
                                              commitments. This area is currently under
                                              review by the OIG, in an effort to identify   Collecting Package Surcharges
                                              potential areas for improvement.              Each day, more than seven million
                                                                                            customers visit Post Ofﬁces, branches,
                                              Channel and Servicing. By examining           and contract postal units to buy
                                              shifting customer demographics,               stamps, mail packages, and collect
                                              lifestyles and behaviors, and utilizing       mail from their Post Ofﬁce boxes. This
                                              new technology, the Postal Service can        portfolio of mail products and services
                                              improve its retail operations by devel-       generates postal revenue.
                                              oping lower-cost alternatives to provide
                                              similar or easier access. To manage this      In FY 2004, Priority Mail and Express
                                              customer experience, the Postal Service’s     Mail volumes declined but Package
                                              strategy in the coming year includes          Services volume increased slightly
                                              overseeing the management of payment          because growth in Bound Printed
                                              options, building the business service        Matter and Media Mail volume offset
                                              network (BSN), and improving service          losses in Parcel Post volume. In this
                                              and servicing options for the “Preferred”     same period, the Postal Service
                                              segment — the $20 billion market              received $5.8 million in walk-in revenue
The Postal Service plans to
aggressively manage core products
                                              segment of small to medium businesses.        for non-machineable surcharges and
and programs that offer the greatest                                                        oversize rates for parcels that required
revenue potential.                            The OIG plans to review this channel          extra handling due to size and weight.
                                              and servicing strategy that relies on



             18 | Semiannual Report to Congress
                                                                                                                                                 STRATEGY: PURSUING REFORM
Although parcel surcharge revenues have      STRATEGY:
increased over the last three years, there
is still an opportunity for more growth.     PURSUING REFORM
The OIG is looking at whether the Postal     The 35-year-old legislative framework
Service is receiving the correct surcharge   of the Postal Service established by
revenue for Priority Mail and Parcel Post    the Postal Reorganization Act of 1970
Packages from retail sales in FY 2005.       needs to be reformed to increase the
                                             operational and market ﬂexibility essential
Mail Acceptance                              to respond to a dynamic, competitive
The Mail Evaluation, Readability and         market. The Postal Service’s goal for
Lookup INstrument (MERLIN) was               pursuing reform is to obtain greater ﬂex-
designed to improve the quality of letter    ibility to improve service, manage costs,
and ﬂat mail preparation, automate           empower employees, and respond to
acceptance, make veriﬁcation consistent,     customer needs.
and ensure collection of appropriate
revenue. The Postal Service has invested     Postal Reform
more than $186 million in MERLIN and         It has been more than a generation since
deployed 1,203 machines nationwide.          Congress passed major postal reform
                                             legislation with the Postal Reorganiza-
The MERLIN program had targets estab-        tion Act (Pub. Law 91-375, August 12,
lished for veriﬁcations of mailings under    1970, 84 Stat. 719), which created the
10,000 pieces at 17 percent and mailings     present-day Postal Service. The reform
over 10,000 pieces at 100 percent. The       was undertaken to depoliticize the former
17 percent target was achieved and           Post Ofﬁce Department and to enable
continuous improvement has been seen         the new U.S. Postal Service to operate
in performance against the 100 percent       more like a business.
target. The OIG conducted six site
reviews and concluded that while utiliza-    Since then, there has
tion had increased, MERLIN machines          been a revolution in how
were not fully utilized.                     the public exchanges
                                             information. The
The Postal Service is exploring a value-     movement of commu-
based veriﬁcation process that may           nication from hard copy
replace the current veriﬁcation percent-     to electronic form, called
ages established with MERLIN. The            “electronic diversion,” has
new criteria would base the schedule         contributed to a recent
of veriﬁcations on the mailer’s historical   decline in First-Class Mail
performance, the type of mailpiece, and      revenues. When coupled
size of the mailing being presented.         with growth in new           Each day, more than seven million customers visit Post Ofﬁces,
                                             deliveries, this becomes     branches, and contract postal units to buy stamps, mail packages, and
At the completion of the nationwide          a serious threat to the      collect mail from their Post Ofﬁce boxes.
MERLIN site-speciﬁc reviews, the OIG         Postal Service’s ﬁnancial
will issue a summary report covering         stability. A growing number of members
systemic issues, user satisfaction, and      of Congress and the mailing community
other global MERLIN issues.                  believe that the current postal business
                                             model is broken and Congress must act
                                             quickly or the Postal Service will face a
                                             tougher economic future.




                                                                                                  October 1, 2004, through March 31, 2005 | 19
                                 The House Committee on Government             minimizing increases in rates) until future
                                 Reform and the Senate Committee on            legislation authorization. In a recommen-
                                 Homeland Security and Governmental            dation to Congress, the Postal Service
                                 Affairs each held a series of hearings        has proposed using these savings to fund
                                 to examine postal reform legislation          retiree health beneﬁts.
                                 during the last Congress. Customer
                                 representatives, postal employees,            The OIG believes these savings are,
                                 postal management, competitors, the           essentially, accumulated postal revenues
                                 Government Accountability Ofﬁce (GAO),        and, therefore, ratepayers’ money
                                 the Administration, the Postal Rate           — not taxpayers’ dollars — and should
                                 Commission, and postal-reliant busi-          be available for operations and capital
                                 nesses testiﬁed before Congress. Each         investment, like all other postal revenue.
                                 committee eventually recommended              In fulﬁlling its congressional mandate
                                 passing postal reform legislation.            to provide universal mail service and
                                 However, neither the House nor the            operate in a business-like manner, the
                                 Senate brought up the postal reform bills     OIG believes the Postal Service should
                                 for further consideration prior to adjourn-   be able to decide whether and how these
                                 ment. The reason, presumably, was             funds should be spent.
                                 anticipated opposition by the Administra-
                                 tion to speciﬁc provisions found in each      Military Retirement. The legislative ﬁx
                                 bill regarding the CSRS escrow account        also required a change in funding pension
                                 and the funding of the military service       beneﬁts by making the Postal Service
                                 portion of Postal Service pensions.           responsible for funding the value of
                                                                               CSRS beneﬁts attributable to the military
                                 Civil Service Retirement System               service of its employees. This legislation
                                 Escrow Account. Congress passed               effectively transferred $27 billion in military
                                 Public Law 108-18 when it became aware        service pension costs from the Depart-
                                 that the Postal Service was on course to      ment of Treasury (taxpayers) to the Postal
                                 overfund its CSRS pension costs. Prior        Service (ratepayers).
                                 to passage of the law, it was estimated
                                 the Postal Service would overpay the          The OIG believes that taxpayers — not
                                 fund by $105 billion over the life of CSRS,   Postal Service customers — should pay
                                 primarily due to higher than expected         the costs of military service beneﬁts.
                                 interest earnings. With enactment of the      It is not appropriate for Postal Service
                                 law, the difference between what would        customers alone to pay these costs
                                 have been paid if the law had not been        through postage when military service
                                 enacted and the contributions made            protects all Americans. All taxpayers have
                                 under the new legislation would be used       a responsibility to bear the costs of a
                                    to maintain current postage rates          common defense through tax dollars. The
                                          through FY 2005 and reduce           use of stamps to pay defense costs is, in
                                                outstanding debt in FYs        essence, a “hidden tax” on Postal Service
                                                2003 and 2004.                 customers. Finally, the OIG believes this
                                                                               practice is inconsistent with policies for
                                              After FY 2005, the Postal        charging federal government agencies,
                                          Service is required to place this    since the Postal Service would be the
                                     difference in its costs into a separate   only federal agency required to pay this
                                 escrow account that it cannot use (even       cost for its own employees retroactively.
                                 for maintaining current postage rates or




20 | Semiannual Report to Congress
                                                                                                                                         STRATEGY: PURSUING REFORM
Basic Postal Reform Legislation                     process with an incentive-based
These funding issues likely will be                 system featuring upper and lower price
undertaken when Congress addresses                  limits to allow the Postal Service to set
postal reform legislation, provided                 rates based on business decisions. The
they are not enacted in free-standing               Postmaster General and the Chairman
legislation. The following reforms may              of the Board of Governors testiﬁed that
also be considered:                                 a well-constructed price cap index
                                                    would reﬂect fuel and network expan-
■   Workers’ Compensation Reform.                   sion, the actual growth in statutory
    The President’s Commission recom-               beneﬁts, and employment costs. The
    mended that the Postal Service be               Postal Service believes it is essential
    relieved from the Federal Employees             that it has the ﬂexibility to set rates
    Compensation Act (FECA) and able to             that meet the needs of its customers
    transition totally disabled employees           and holds up to the challenge of its
    to regular retirement programs, which           competitors. The goal is to streamline
    are less costly to the Postal Service.          and simplify rate-setting procedures.
    Speciﬁcally, the Postal Service should
    be allowed to transition individuals        ■   Design a Smaller, Stronger Postal
    receiving workers’ compensation                 Network. The President’s Commis-
    beneﬁts to its retirement plan when             sion recommended creating a
    employees become eligible for retire-           Postal Network Optimization
    ment, even when the injuries give rise          Commission (P-NOC), similar to
    to the workers’ compensation beneﬁts.           the Defense Base Closure and
                                                    Realignment Commission, to make
    The Postal Service has a signiﬁcant             recommendations on consolidating
    workers’ compensation liability. At             and rationalizing the Postal Service
    the end of 2004, the Postal Service             mail processing and distribution
    estimated its total liability for future        infrastructure (the END initiative).
    workers’ compensation costs at almost           The Presidential Commission’s
    $7.6 billion, an increase of $343 million       report indicates the P-NOC
    over 2003. There is an urgent need to           recommendations would become
    reconsider the Postal Service’s obliga-         ﬁnal once the President submitted
    tions under FECA given the Postal               them to Congress, unless Congress
    Service’s current almost $7.6 billion           disapproved them within a reasonable
    liability for workers’ compensation.            period. The OIG plans to address END
                                                    closure processes in a future review.
    Congress should consider empowering
    the Postal Service to deal with its             In addition, repealing existing statutes
    workers’ compensation costs in a                limiting the Postal Service’s ability
    manner that preserves reasonable                to close low-activity Post Ofﬁces,
    beneﬁts for injured workers, while not          as the President’s Commission
    saddling it with unreasonable costs.            recommended, would give the Postal
    Reducing these costs would have a               Service needed ﬂexibility to manage
    major impact on improving the overall           its facilities like private sector busi-
    cost of postal operations.                      nesses. The Postal Service must
                                                    balance its mandate of providing
■   New Rate-Setting Procedures. The                universal mail service with carefully
    President’s Commission recommended              managing its costs.
    replacing the existing rate-setting



                                                                                          October 1, 2004, through March 31, 2005 | 21
PRESERVING INTEGRITY AND SECURITY
                                    While the Postal Service’s Five-Year                 value of approximately $1.2 billion
                                    Strategic Plan does not identify                     during FY 2004.
                                    preserving integrity as a strategic goal,
                                    integrity is an essential element for safe-          In a major case, the OIG deter-
                                    guarding postal products, customers,                 mined that a purchasing specialist
                                    services and assets, and, ultimately, for            had been steering Postal Service
                                    maintaining a stable and sound Postal                contracts to various printing compa-
                                    Service. Breaches of integrity pose an               nies in a 12-year bribery scheme. On
                                    inherent risk, due to the size and diver-            February 11, 2005, a U.S. District
                                    sity of the organization.                            Court judge in Washington, D.C.,
                                                                                         ordered the former purchasing
                                                                                         specialist to spend 46 months in jail
                                    INVESTIGATIVE ACTIVITIES                             and pay $771,363 restitution to the
                                    In addition to the many administrative               Postal Service. The man pleaded
                                    and management safeguards already in                 guilty in October 2004 to receiving
                                    place, the U.S. Postal Inspection Service            bribes and money laundering. This
                                    (USPIS) and the OIG are important                    investigation also resulted in guilty
                                    resources in preserving the integrity and            pleas from a number of the printing
                                    security of the Postal Service. These                vendors that were seeking, and
                                    two law enforcement agencies are                     obtaining, printing contracts with
                                    responsible for investigating criminal, civil,       the Postal Service through the
                                    and administrative matters related to the            purchasing specialist. For some of
                                    Postal Service.                                      these vendors, the payments went
                                                                                         as far back as 1991.
                                    The OIG’s mandate is to investigate
                                    contract fraud and employee misconduct.          ■   Supplies Portfolio. The Postal
                                    Results of the OIG’s investigative efforts           Service issued more than 4,000
                                    are highlighted below.                               contract actions for supplies with a
                                                                                         commitment value of approximately
                                    Acquisitions and Contract Fraud.                     $1.6 billion during FY 2004. The OIG is
                                    The OIG Contract Fraud Investigations                undertaking supply contract initiatives
                                    program provides oversight of the Postal             and investigations involving delivery,
                                    Service’s active contracts, which totaled            information technology, ofﬁce supplies,
                                    more than $25 billion in FY 2004.                    utilities, and trailers and vehicles.

                                    OIG contract fraud investigations resulted           As a result of an OIG investigation, an
                                    in more than $11 million in ﬁnes, restitu-           Alabama auto-distributor company
                                    tions, recoveries, and settlements in                agreed to supply 174 truck transmis-
                                    FY 2004. To assess the Postal Service’s              sions for the Postal Service Long-Life
                                    management of acquisitions and                       Vehicle, valued at $256,650, for
                                    contracts, the OIG created initiatives               no charge. The 174 transmissions
                                    focusing on each of the following ﬁve                supplied by this contractor failed
                                    Postal Service portfolios:                           during the two-year warranty period.
                                                                                         Documentation of the failures led
                                    ■   Services Portfolio. The Postal Service           to an intensive quality review and
                                        issued more than 8,000 contract                  signiﬁcant improvements in product
                                        actions for services with a commitment           quality and reliability have been
                                                                                         made. The company did not initially




   22 | Semiannual Report to Congress
                                                                                                                                         PRESERVING INTEGRITY AND SECURITY
    provide free replacements per its               and bulk fuels and for surface and air
    agreement with the Postal Service.              transportation assets. One example
    In an administrative settlement, the            of OIG work in this area involves a
    company agreed to supply the trans-             Postal Service contracting ofﬁcer who
    missions, over the next year, to 15             managed a hub-and-spoke contract
    vehicle maintenance facilities (VMFs)           in Texas. This individual received
    throughout the country. In addition,            gratuities from a contractor potentially
    postal employees at the Philadelphia            affecting more than $11 million in ramp
    VMF identiﬁed seven more defective              services contracts.
    transmissions from a list compiled
    by special agents. The company              ■   Mail Equipment Portfolio. The Postal
    replaced these transmissions, valued            Service issued more than 1,400 mail
    at $12,075, free of charge.                     equipment contract actions with a
                                                    commitment value of approximately
■   Facilities Portfolio. The Postal Service        $1.3 billion. The OIG monitors contrac-
    issued more than 17,000 facilities              tual activity involving mail sorting and
    related contract actions with a                 processing equipment, address recog-
    commitment value of approximately               nition technology, and bioprotection.
    $650 million in FY 2004. OIG
    investigations focused on facilities        Since September 2004, the OIG has
    planning, construction, repair, altera-     established a Supplier Monitoring
    tion, and leasing. In New York, the         Working Group, in which audit and
    OIG investigated a subcontractor            investigations team members share
    that submitted false payrolls under         resources and information on the Postal
    a $7 million contract to repair Postal      Service’s top suppliers in the ﬁve portfo-
    Service facilities. The president and       lios discussed above. The OIG continues
    vice president of the company were          to work with the Postal Service’s Supply
    eventually arrested. One has since          Management team to suspend and
    pleaded guilty, and criminal prosecu-       debar suppliers when exclusion or
    tion is pending for the other.              suspension from government contracting
                                                is merited. During this reporting period,
The OIG is also investigating fraudulent        OIG investigators proposed debarring
charges for Common Area Maintenance             eight suppliers.
(CAM), in which Postal Service facilities
share common areas with other tenants.          IMPAC and Voyager Fleet Cards. In
The OIG found that the Postal Service           addition to acquiring goods and services
was charged more for maintaining these          through contracts, the Postal Service
areas than the lease agreements stipu-          uses International Merchant Purchase
lated, resulting in recoveries for the Postal   Authorization Cards (IMPAC) and Voyager
Service of approximately $316,215.              Fleet Cards. The IMPAC Program
                                                processed transactions totaling more
■   Transportation Portfolio. The Postal        than $400 million and earned the Postal
    Service issued more than 8,000 trans-       Service more than $2 million in refunds
    portation-related contract actions with     during 2004. The Voyager Fleet Card
    a commitment value of approximately         Program — which pays for the fuel, oil,
    $2 billion in FY 2004. OIG investiga-       repair, maintenance, and washing of more
    tors are searching for potential fraud      than 220,000 Postal Service vehicles —
    in transportation contracts for retail      processed more than $253 million in FY




                                                                                          October 1, 2004, through March 31, 2005 | 23
                                                   2004, with documented savings and cost           The OIG continues to investigate ring-
                                                   avoidance to the Postal Service of more          type groups that are still ﬁnding ways to
                                                   than $22 million.                                compromise Voyager cards to purchase
                                                                                                    fuel in the Northeast, Midwest, and on the
                                                   The OIG developed a database to identify         West Coast.
                                                   potentially fraudulent IMPAC and Voyager
                                                   Fleet Card transactions. Investigators are       Financial Investigations. Financial
                                                   also developing a knowledge base of              investigations cover a wide range of
                                                   known fraudulent transactions to maxi-           activity, including embezzlement, theft,
                                                   mize the tool’s effectiveness in identifying     misconduct, falsiﬁcation of records, and
                                                   future fraudulent transactions.                  conversion and misuse of Postal Service
                                                                                                    property. These are frequently internal
                                                              In another case, OIG investi-         investigations of employees and contrac-
                                                              gators identiﬁed program-wide         tors. One case during the reporting
                                                              weaknesses in the Voyager             period involved a Texas postmaster who
                                                              Fleet Card Program receipt-           embezzled more than $69,000 and is
                                                              reconciliation process. Since         now facing criminal indictment. In a joint
                                                              the case began in July 2003,          case with the USPIS, the OIG investigated
                                                              offenders have used approxi-          a relief postmaster, in the Chicago area,
                                                              mately 270 Voyager credit             who confessed to embezzling more than
                                                              cards and/or card Personal            $100,000 in money orders.
                                                              Identiﬁcation Numbers (PINs)
                                                              to fraudulently purchase              The OIG’s Financial Investigations group
                                                              approximately $400,000 in             has started work on two new initiatives.
                                                              fuel in the Miami, Fla., area.        The gift check initiative searches for
                                                              Coordination between the              managers who approve purchases by
                                                              OIG, Voyager card represen-           employees who cash the gift checks for
                                                              tatives, and Postal Service           themselves. The nonsufﬁcient funds initia-
                                                              management enabled impor-             tive identiﬁes customers and, increasingly,
                                                              tant changes to be made to            employees who pass bad checks to the
                                                              the Voyager reconciliation            Postal Service — a $29 million exposure
The OIG launched several projects to detect fraud and         process and program in the            in 2004.
identify the root causes of accelerating costs for workers’   Southeast Area.
compensation.                                                                                       Fraudulent Workers’ Compensation.
                                                   Investigators also found that local              The Postal Service is one of the largest
                                                   managers had not been verifying (recon-          participants in the federal Workers’
                                                   ciling) all fuel receipts. Now, as a result of   Compensation Program and paid
                                                   an OIG investigation, when someone fuels         $830 million in compensation from July
                                                   a postal truck, he or she must take the          1, 2003 through June 30, 2004. Of this
                                                   receipt to a local manager, who recon-           amount, $309 million was for medical
                                                   ciles it with the Voyager database. This         payments to providers and $521 million
                                                   veriﬁcation process brought immediate            was for compensation to claimants and
                                                   large-scale improvements to Southeast            beneﬁciaries. Administered by the DOL
                                                   Area VMFs, where approximately 70                OWCP provides direct compensation to
                                                   percent of Voyager transactions were not         providers, claimants, and beneﬁciaries.
                                                   being reconciled.                                The Postal Service later reimburses
                                                                                                    OWCP in a process known as Charge
                                                                                                    Back Billing. The OIG has initiated more




              24 | Semiannual Report to Congress
                                                                                                                                        PRESERVING INTEGRITY AND SECURITY
than 700 claimant and provider fraud           pharmaceutical and durable medical
investigations since October 1, 2004.          equipment providers, in the Paciﬁc Area,
During this reporting period, healthcare       over a three-year period. By comparing
fraud investigations resulted in more          this information to typical indicators
than $11 million in cost avoidances and        of fraud, the OIG was able to identify
approximately 60 administrative personnel      $2.9 million in questionable provider costs.
actions, including removals, letters of
warning, and claims terminations.              The Health Care Internal Data Analysis
                                               System (HIDAS), developed by the OIG, is
In March 2005, the OIG and the Postal          an automated reporting system that iden-
Service’s Health and Resources Manage-         tiﬁes potential fraudulent billing schemes.
ment (HRM) team established a process          Since its implementation in the Southwest
by which HRM will refer all allegations        Area in July 2004, HIDAS has searched
of workers’ compensation fraud to the          records of more than $173.5 million in
OIG. Previously, the OIG received only         billings to OWCP from January 1, 2000,
allegations of medical provider fraud for      to March 15, 2004. This search resulted
possible investigation, while the USPIS        in the discovery of more than $541,000
received allegations of claimant fraud.        in duplicate medical billings, $192,000 of
The OIG will issue a quarterly report to       which has since been credited back to
apprise HRM of the status of the workers’      the Postal Service.
compensation referrals it has accepted
for investigation — whether ongoing,
resolved or closed. The OIG and the            OVERSIGHT OF
USPIS will coordinate their efforts in         INVESTIGATIVE ACTIVITIES
workers’ compensation fraud in order to
determine the appropriate investigative        AND SECURITY
action on each OWCP case.                      The OIG has a statutory requirement
                                               under the Inspector General Act of
The OIG launched several projects              1978, as amended, to provide oversight
to detect fraud and identify the root          of the U.S. Postal Inspection Service
causes of accelerating costs for workers’      (USPIS). This oversight is accomplished
compensation. One such project is              through program audits and reviews,
the Injury Compensation Working                including quality control reviews of the
Group, created in 2004. The group’s            USPIS. Details of the program audits are
members include representatives from           included in the Security Section of this
the OIG, USPIS, Postal Service Health          semiannual report.
and Resource Management, and DOL.
Through investigative initiatives, the group   The OIG and USPIS, two separate
has identiﬁed pharmaceutical providers,        law enforcement agencies with their
podiatrists, clinical psychologists, and       respective missions, have formed a
durable medical equipment providers            partnership to work together in areas of
who reported the greatest increases in         shared responsibilities. The OIG and the
medical billings. These providers were         USPIS will continue to conduct reviews to
then referred to OIG ﬁeld ofﬁces for           ensure effective investigative results and
further investigation.                         assist the Postal Service in addressing its
                                               management challenge of securing the
Another OIG initiative involved the review     nation’s mail system.
of $310 million in billings submitted by




                                                                                         October 1, 2004, through March 31, 2005 | 25
                                 Opportunities exist to improve the overall     our nation’s infrastructure. One of the
                                 management of USPIS vehicles and               many concerns has been the potential
                                 accountability over ﬁrearms.                   vulnerability of the nation’s mail system.
                                                                                Due to its sheer size and geographic
                                 Law Enforcement Vehicles. The                  dispersion, securing the mail is a daunting
                                 USPIS maintains a ﬂeet of approximately        challenge. However, through innovation
                                 2,220 vehicles with an asset value of          and focus on key vulnerabilities, the
                                 $42 million. These vehicles are primarily      Postal Service has made signiﬁcant
                                 used by inspectors and postal police           strides towards protecting the integrity
                                 ofﬁcers for ofﬁcial business only and are      of the mailstream by making its systems
                                 considered for replacement at ﬁve years        safer and more secure.
                                 or 75,000 miles. The OIG determined
                                 that although USPIS ofﬁcials generally         Emergency Preparedness. In
                                 followed their own disposal criteria           response to the Homeland Security
                                 regarding vehicle age, the management          Presidential Directive 5, the Postal Service
                                 of USPIS vehicles could be improved by         is implementing an Integrated Emergency
                                 extending the mileage and overall service      Management Plan. These directives
                                 life of its vehicles.                          require all federal departments and
                                                                                agencies, including the Postal Service
                                 Firearms. The USPIS allows its postal          and USPIS, to adopt a comprehensive
                                 inspectors and postal police ofﬁcers to        plan to deal with all incidents and
                                 carry ﬁrearms. These ﬁrearms must be           hazards. The plan is designed to improve
                                 accounted for from acquisition through         coordination of planning and response
                                 ﬁnal disposition, to include transfer,         activities among functional areas,
                                 retirement, destruction, and lost, stolen,     minimize duplication of planning efforts,
                                 or missing. The OIG determined that the        and establish a standardized emergency
                                 USPIS has made progress in effectively         management process. The USPIS
                                 strengthening its controls over ﬁrearms.       anticipates completing the plan by April
                                 The USPIS Task Force inventoried all           2005 and providing training to all divisions
                                 USPIS ﬁrearms and developed additional         by September 2005. The OIG will assess
                                 policy to ensure the future accuracy of        the effectiveness of the plan and training
                                 the ﬁrearms inventory. However, based          upon completion.
                                 on the OIG’s analysis of task force results,
                                 47 additional ﬁrearms were not included        Handling Suspicious Mail and
                                 in the task force’s inventory. The OIG         Unknown Powders and Substances.
                                 recommended that USPIS management              Since October 2001, the Postal Service
                                 require responsible personnel to report        and the USPIS have responded to more
                                 the 47 ﬁrearms in the National Crime           than 20,000 suspicious mail incidents.
                                 Information Center or consult with the         In an effort to standardize communica-
                                 Department of Justice (DOJ) to determine       tions and ensure consistent practices
                                 ﬁnal resolution.                               throughout the Postal Service, the
                                                                                Ofﬁce of Emergency Preparedness has
                                                                                established a Suspicious Mail working
                                 SECURITY                                       group to review, consolidate, reconcile,
                                 Since the terrorist attacks in September       and reissue national policies and proce-
                                 2001, the federal government has worked        dures. The working group includes key
                                 on improving the safety and security of        ofﬁcials within the Postal Service who




26 | Semiannual Report to Congress
                                                                                                                                             PRESERVING INTEGRITY AND SECURITY
are responsible for ensuring a safe and         and substances; (2) implementing new
secure environment for Postal Service           initiatives for detection of threats to and
employees and customers. The working            the protection of mail systems; and (3)
group soon plans to issue a new memo-           developing, implementing, and coordi-
randum of policy.                               nating emergency preparedness plans.

Detection of Threat to and                      Securing the Postal Service’s
Protection of Mail Systems. The                 Network Infrastructure. The Postal
Postal Service continues to rely on             Service’s 2002 Transformation Plan
technology investments to enhance               called for enhancing security, upgrading
the security and safety of customers            the Postal Service infrastructure, and
and employees. The Postal Service is            providing universal computing connec-
currently implementing key initiatives          tivity. In response to the Plan, the Postal
to expand its ability to detect poten-          Service modernized, secured, and
tial biohazards. The Postal Service             simpliﬁed its infrastructure, during 2004,
anticipates these initiatives will result in    with the Advanced Computing Environ-
savings in operating costs and reduc-           ment (ACE) program. In 2004, 147
tions in the original number of planned         national applications were converted to
Biohazard Detection System purchases.           ACE and 12,000 servers were removed
                                                from the ﬁeld.
Facility Security Reviews. The USPIS
has implemented several initiatives to          The ACE program should result
identify potential vulnerabilities of postal    in signiﬁcant savings through its
facilities through security reviews and         centralization and reduction of support
observing mail processing conditions            functions for the 130,000 Postal Service
at facilities. These reviews are based on       computer users at 28,000 postal facili-
the use of a facility-risk rating model to      ties nationwide. In addition, ACE makes
assess the vulnerability of postal facilities   the system less cumbersome and
to crime, with points assessed based on         complex, more reliable, and easier to
risk factors and countermeasures already        maintain and manage.
in place. The model is a tool to help
postal managers plan and fund projects          The Postal Service has rapidly
and manage risk levels.                         upgraded its network infrastructure
                                                and communications capabilities and,
In addition, a uniformed security force         during this process, the security and
will be maintained at high-risk facilities to   privacy of electronic information remain
protect employees, postal property, and         a high priority. The OIG performed
the mail. The OIG, in coordination with the     audits of the Postal Service’s program
USPIS, plans to assess the facility secu-       infrastructure and of network perimeter
rity reviews to report on the effectiveness     devices associated with business
of facility security.                           partner connectivity. The OIG’s work has
                                                shown the security to be relatively good;
The Postal Service and the OIG                  however, improvements can be made.
will continue to review policies and            The Postal Service and the OIG will
procedures for effectively: (1) handling        continue to provide periodic assessments
suspicious mail and unknown powders             of computing infrastructure security.




                                                                                              October 1, 2004, through March 31, 2005 | 27
U.S. POSTAL SERVICE
OFFICE OF INSPECTOR GENERAL
ORGANIZATIONAL CHART
As of March 31, 2005




                                                                                 Inspector General



                                                                                      Deputy
                                                                                 Inspector General



                          Ofﬁce of              AIG –
   Ofﬁce of CIO                                                                  AIG Investigations                                                     AIG – Audit
                       General Counsel     Mission Support



                        Deputy General         Director        Deputy AIG            Deputy AIG            Deputy AIG
      CAATS                                                                                                                       Audit Reporting                         Audit Planning
                           Counsel         Mission Support    Headquarters       Investigations East   Investigations West



    Application         Congressional,        Human             Strategic            Computer                                    Deputy AIG             Deputy AIG          Deputy AIG
   Development          FOIA & Hotline       Resources        Enforcement           Crimes Unit         Special Inquiries    Financial Operations    Field Operations     Core Operations



                                           Administrative      Investigative                                Chicago                 Financial                                Network
   IT Operations        Legal Services       Services                            Altanta Field Ofﬁce                               Statements        Field Operations       Processing
                                                                Operations                                Field Ofﬁce



   Consolidated                                                                  Boston Field Ofﬁce          Dallas                 Information                            Transportation
                                            Performance      Special Inquiries                                                                         Engineering
     Security                                                                                             Field Ofﬁce                 Systems



  Client Support/                                              Washington        Miami Field Ofﬁce          Denver                                                        Delivery & Retail
      Telecom                               Investments                                                   Field Ofﬁce               Marketing            Facilities
                                                               Field Ofﬁce



                                                                                     New York               Houston                  Supply
                                                                                    Field Ofﬁce                                                     Capital Investments   Human Capital
                                                                                                          Field Ofﬁce              Management



                                                                                                          Los Angeles                                                       Oversight of
                                                                                    Philadelphia                                                                            Investigative
                                                                                    Field Ofﬁce           Field Ofﬁce
                                                                                                                                                                              Activities


                                                                                     St. Louis           San Francisco
                                                                                    Field Ofﬁce           Field Ofﬁce




                                                                                                                             Abbreviations
                                                                                                                             AIG           Assistant Inspector General
                                                                                                                             CAATS         Computer Assisted Assessment Techniques
                                                                                                                             CIO           Chief Information Ofﬁcer
                                                                                                                             FOIA          Freedom of Information Act
                                                                                                                             IT            Information Technology




               28 | Semiannual Report to Congress
     U.S.HEADER
          POSTAL SERVICE
     OFFICE OF INSPECTOR GENERAL
     OFFICE LOCATIONS
                                                                         The OIG currently has more than 800 employees located
                                                                         in 13 ﬁeld ofﬁces as well as other locations nationwide.




                              Seattle, WA



                                                                                                              Pittsburgh, PA
                                                                                                                                            Portland, ME
                                                                                                                                            Albany, NY
                                                                                                                                            Boston, MA
                                                                                                                                         Springfield, MA
                                                                                             Detroit, MI                                 Providence, RI
                                                                                                                                       New Haven, CT
                                                                             Chicago, IL     Cleveland, OH
                                   Salt Lake City, UT                            Indianapolis,IN
                                                                                                                                   New York, NY
San Francisco, CA                                                                                                                 Philadelphia, PA
                                               Denver, CO   Kansas City,KS
                                                                                            Cincinnati,OH                         Baltimore, MD
                           Las Vegas, NV
                                                                     St.Louis,MO                                               Washington, DC
     Los Angeles, CA                                                                   Memphis,TN                            Raleigh, NC
                                 Phoenix, AZ
           San Diego, CA                                                                                                   Greensboro, NC
                                                                                        Birmingham, AL
                                                                                                                        Atlanta, GA
                                                                 Dallas,TX



                                                                                       New Orleans, LA               Miami, FL
                                                                             Houston, TX

                                                                                                                                            Puerto Rico



                                                                                                             Field Offices
                                                                                                             Field Offices (Investigations Only)
                                                                                                             Audit & Investigations Offices
                                                                                                             Investigations Only




                                                                                                           October 1, 2004, through March 31, 2005 | 29
APPENDICES
                        The Inspector General Act of 1978 requires                            and corrective actions related to the admin-
                        semiannual reports on the immediately-                                istration of U.S. Postal Service programs
                        preceding six-month periods ending                                    and operations during the reporting period.
                        March 31 and September 30. These reports                              During the last six months, the Postal Service
                        are sent to Congress and made available to                            agreed with OIG recommendations that
                        the public.                                                           identiﬁed potential monetary beneﬁts of more
                                                                                              than $133.5 million.
                        This report summarizes OIG activities and
                        illustrates signiﬁcant problems, abuses and                          The appendices on the following pages fulﬁll
                        deﬁciencies, along with recommendations                              the requirements of the Act.



             APPENDIX A
             REPORTS ISSUED TO POSTAL SERVICE MANAGEMENT
             For the period October 1, 2004, through March 31, 2005
             OIG audit teams conduct performance and ﬁnancial audits, evaluations, and other reviews to address the business of the Postal Service. Each
             team issues audit reports (AR) or management advisory reports (MA) in accordance with the identiﬁed needs of the project.


             SUMMARY
             The following is a summary by principal area of reports issued to Postal Service management. The following pages list each issued report.

                                                                                                        Recommended              Potential
                                               Number of           Questioned        Unsupported          Funds Put To          Additional     Unrecoverable
              Principal Area               Reports Issued              Costs1              Costs            Better Use           Revenue               Costs
              Improving Service                         12                  —                   —                     —          $121,062                $92,762
              Managing Costs                           140        $17,090,638             $22,837         $114,646,808            $98,470          $1,456,471
              Developing People                           2                 —                   —                     —                 —                    —

              Growing Revenue                             7                 —                   —                     —           $44,163                    —
              Pursuing Reform                           —                   —                   —                     —                 —                    —
              Preserving Integrity                        8                 —                   —                     —                 —                    —
              TOTAL                                    169        $17,090,638             $22,837         $114,646,808           $263,695          $1,549,233




   30 | Semiannual Report to Congress
                                                                                                                                                              APPENDIX A
REPORTS WITH QUANTIFIABLE POTENTIAL
MONETARY BENEFITS
                                               Total                              Potential
                                         Questioned Unsupported   Funds Put to   Additional Unrecoverable
SARC Report Title                             Costs       Costs     Better Use    Revenue           Costs


IMPROVING SERVICE                                                                                                     DEFINITIONS
DELIVERY AND RETAIL
                                                                                                                      QUESTIONED COSTS
City Letter Carrier Operations –                                                                                      A cost that is unnecessary,
Rio Grande District                                                                                                   unreasonable, unsupported, or an
DR-AR-05-009; 12/2/2004                         —           —              —           —         $92,762              alleged violation of law, regulation,
                                                                                                                      contract, etc.

NETWORK PROCESSING                                                                                                    UNSUPPORTED COSTS
                                                                                                                      A cost that is not supported
Processing of Overseas Military
                                                                                                                      by adequate documentation.
Absentee Ballots
NO-AR-05-007; 3/30/2005                         —           —              —      $121,062            —               Unsupported Costs are included in
                                                                                                                      Questioned Costs.
                                                                                                                      FUNDS PUT TO BETTER USE
MANAGING COSTS                                                                                                        Funds that could be used more
                                                                                                                      efﬁciently by implementing
FINANCIAL STATEMENTS                                                                                                  recommended actions.
Imprest Fund at the Former Columbia,
Maryland, Facilities Service Ofﬁce
                                                                                                                      POTENTIAL ADDITIONAL
FT-MA-05-001; 1/6/2005                      $1,470       $1,470            —           —              —               REVENUE
                                                                                                                      Amounts from revenue-
                                                                                                                      generating functions such as
FISCAL YEAR 2004 FINANCIAL INSTALLATION AUDITS                                                                        retail sales, rent, leases, or
                                                                                                                      fees that were underpaid or not
Caribbean District                                                                                                    realized. In addition, this category
FF-AR-05-013; 12/6/2004                    $21,367      $21,367            —           —              —               includes increased revenue from
Old San Juan Post Ofﬁce                                                                                               existing functions and generating
FF-AR-05-012; 12/6/2004                         —           —              —        $5,768            —               revenue from new sources.
Rahway Main Ofﬁce                                                                                                     UNRECOVERABLE COSTS
FF-AR-05-006; 10/26/2004                        —           —              —        $3,050            —               A cost that perhaps should not
San Juan and Old San Juan Self-Service                                                                                have been incurred and is not
Postal Units                                                                                                          recoverable.
FF-AR-05-011; 12/6/2004                         —           —              —           —          $3,181


FISCAL YEAR 2005 FINANCIAL INSTALLATION AUDITS
Brookhaven Station, Atlanta, Georgia
FF-AR-05-030; 12/29/2004                        —           —              —        $1,650         $2,494
Chanhassen Business Mail Entry Unit –
Chanhassen, Minnesota
FF-AR-05-086; 3/16/2005                     $4,084          —              —        $1,869            —
Claysburg Business Mail Entry Unit –
Claysburg, Pennsylvania
FF-AR-05-091; 3/23/2005                         —           —              —        $8,171            —
Dublin Business Mail Entry Unit –
Dublin, Ohio
FF-AR-05-090; 3/23/2005                         —           —              —        $2,013            —
Falls Church Automated Postal Center –
Falls Church, Virginia
FF-AR-05-037; 1/6/2005                          —           —              —           —           $2,664




                                                                                                     October 1, 2004,
                                                                                                       October        through
                                                                                                                1, 2004,      March
                                                                                                                         through    31,31,
                                                                                                                                 March  2005 | 31
                                                                                                                                           2005 | 31
                                     REPORTS WITH QUANTIFIABLE POTENTIAL
                                     MONETARY BENEFITS
                                                                                     Total                              Potential
                                                                               Questioned Unsupported   Funds Put to   Additional Unrecoverable
                                     SARC Report Title                              Costs       Costs     Better Use    Revenue           Costs
                                     General Mail Facility Finance Station –
                                     Denver, Colorado
                                     FF-AR-05-025; 12/27/2004                    $11,161          —              —       $10,483          $466
                                     Lansdale Business Mail Entry Unit –
                                     Lansdale, Pennsylvania
                                     FF-AR-05-044; 1/18/2005                          —           —              —       $12,668            —
                                     Leesburg Business Mail Entry Unit –
                                     Leesburg, Virginia
                                     FF-AR-05-096; 3/29/2005                          —           —              —       $16,939            —
                                     Ludlam Branch Post Ofﬁce,
                                     Miami, Florida
                                     FF-AR-05-098; 3/30/2005                          —           —              —         $300             —
                                     Lynchburg Downtown Station,
                                     Lynchburg, Virginia
                                     FF-AR-05-060; 2/11/2005                          —           —              —       $10,146            —
                                     Martinez Business Mail Entry Unit –
                                     Martinez, California
                                     FF-AR-05-101; 3/31/2005                          —           —              —        $4,425            —
                                     Milpitas Business Mail Entry Unit –
                                     Milpitas, California
                                     FF-AR-05-078; 3/4/2005                           —           —              —        $1,056            —
                                     Minneapolis Business Mail Entry Unit –
                                     Minneapolis, Minnesota
                                     FF-AR-05-045; 1/13/2005                     $33,211          —              —        $1,210            —
                                     North Lake Travis Branch –
                                     Lago Vista, Texas
                                     FF-AR-05-034; 12/29/2004                         —           —              —           —           $2,999
                                     Oak Park Business Mail Entry Unit –
                                     Oak Park, Illinois
                                     FF-AR-05-048; 1/24/2005                          —           —              —       $12,768            —
                                     Ocala Post Ofﬁce, Ocala, Florida
                                     FF-AR-05-071; 2/25/2005                          —           —              —        $1,992         $1,480
                                     Palo Alto Business Mail Entry Unit –
                                     Palo Alto, California
                                     FF-AR-05-085; 3/16/2005                          —           —              —        $3,467            —
                                     Piqua Business Mail Entry Unit –
                                     Piqua, Ohio
                                     FF-AR-05-053; 2/8/2005                           —           —              —         $495             —
                                     Wheaton Branch, Silver Spring,
                                     Maryland
                                     FF-AR-05-040; 1/5/2005                           —           —              —           —           $5,912


                                     INFORMATION SYSTEMS
                                     Reports Distribution
                                     IS-AR-05-001; 10/25/2004                         —           —      $3,220,411          —              —
                                     NETWORK PROCESSING
                                     Efﬁciency Review of the Akron, Ohio,
                                     Processing and Distribution Center
                                     NO-AR-05-009; 3/30/2005                          —           —     $73,996,558          —              —




32 | Semiannual Report to Congress
                                                                                                                                                         APPENDIX A
REPORTS WITH QUANTIFIABLE POTENTIAL
MONETARY BENEFITS
                                                 Total                              Potential
                                           Questioned Unsupported   Funds Put to   Additional Unrecoverable
SARC Report Title                               Costs       Costs     Better Use    Revenue           Costs
Efﬁciency Review of the Mansﬁeld, Ohio,
Main Post Ofﬁce
NO-AR-05-004; 12/8/2004                           —           —     $17,183,404          —              —


SUPPLY MANAGEMENT
Audit of Certiﬁed Price Adjustment Claim
Submitted by Evergreen Aviation Ground
Logistics Enterprises, Incorporated,
Under Contract Number TNET 93-01
CA-CAR-05-014; 2/24/2005                    $793,837          —              —           —              —
Audit of Certiﬁed Price Adjustment Claim
Submitted by Evergreen Aviation Ground
Logistics Enterprises, Incorporated,
Under Contract Number TNET 93-01
CA-CAR-05-011; 1/20/2005                   $2,259,851         —              —           —              —
Audit of Certiﬁed Price Adjustment Claim
Submitted by Evergreen Aviation Ground
Logistics Enterprises, Incorporated,
Under Contract Number TNET 93-01
CA-CAR-05-010; 1/20/2005                   $3,755,842         —              —           —              —
Audit of Firm Fixed Price Base Proposal
Submitted by Lockheed Martin Systems
Integration, Owego, Under Solicitation
Number 3AAERD-04-Z-6397
CA-CAR-05-012; 2/3/2005                      $22,492          —              —           —              —
Audit of Firm Fixed Price Proposal
Submitted by ABB Automation,
Incorporated, Under Solicitation Number
3BMHRD-04-A-1116
CA-CAR-05-003; 10/25/2004                  $3,415,051         —              —           —              —
Audit of Firm Fixed Price Proposal
Submitted by Lockheed Martin
Distribution Technologies – Owego,
Under Solicitation Number
3BMHRD-03-B-4267
CA-CAR-05-007; 12/27/2004                   $357,806          —              —           —              —
Audit of Firm Fixed Price Proposal
Submitted by Lockheed Martin Systems
Integration – Owego
CA-CAR-05-006; 12/14/2004                  $1,868,004         —              —           —              —
Audit of Firm Fixed Price Proposal
Submitted by Lockheed Martin Systems
Integration – Owego, Under Solicitation
Number 3AAERD-04-Z-6397
CA-CAR-05-009; 1/14/2005                    $256,926          —              —           —              —
Audit of Firm Fixed Price Proposal
Submitted by Northrop Grumman
Corporation Electronic Systems
Company
CA-CAR-05-008; 1/10/2005                   $2,014,776         —              —           —              —




                                                                                                          October 1, 2004, through March 31, 2005 | 33
                                     REPORTS WITH QUANTIFIABLE POTENTIAL
                                     MONETARY BENEFITS
                                                                                       Total                              Potential
                                                                                 Questioned Unsupported   Funds Put to   Additional Unrecoverable
                                     SARC Report Title                                Costs       Costs     Better Use    Revenue           Costs
                                     Audit of Firm Fixed Price Proposal
                                     Submitted by Northrup Grumman
                                     Corporation Electronic Systems
                                     Company
                                     CA-CAR-05-015; 3/14/2005                     $977,203          —              —           —              —
                                     Audit of Incurred Cost Price Adjustment
                                     Proposal and Reformation Proposal
                                     Submitted by Matheson Flight
                                     Extenders, Incorporated Under Contract
                                     Number SNET-01-WR
                                     CA-CAR-05-004; 12/1/2004                     $975,451          —              —           —              —
                                     Audit of Parts of a Firm Fixed Price
                                     Proposal Submitted by Advanced
                                     Technology and Research Corporation,
                                     Under RFP Number
                                     3BMHRD-04-A-1337
                                     CA-CAR-05-002; 10/25/2004                    $250,617          —              —           —              —
                                     Audit of Price Adjustment Proposal
                                     Submitted by Integrated Airline Services,
                                     Incorporated Under Contract Number
                                     SNET-01-SWR
                                     CA-CAR-05-005; 11/30/2004                     $71,489          —              —           —              —
                                     Automated Postal Center Program
                                     Management
                                     CA-AR-05-001; 12/21/2004                           —           —              —           —          $68,742


                                     TRANSPORTATION
                                     Mail Transport Equipment Service
                                     Center Network – Equipment Processing
                                     NL-AR-05-006; 3/31/2005                            —           —      $7,845,043          —       $1,368,533
                                     Surface Networks – Intermodal Rail and
                                     Highway Transportation – Paciﬁc Area
                                     NL-AR-05-004; 3/18/2005                            —           —      $1,046,240          —              —
                                     Surface Transportation – Bulk Mail
                                     Center Highway Transportation Routes –
                                     Eastern Area
                                     NL-AR-05-003; 3/17/2005                            —           —      $4,791,570          —              —
                                     Surface Transportation – Bulk Mail
                                     Center Highway Transportation Routes –
                                     Southeast Area
                                     NL-AR-05-005; 3/18/2005                            —           —      $6,563,582          —              —


                                     GROWING REVENUE
                                     NETWORK PROCESSING
                                     Mail Evaluation, Readability and Lookup
                                     INstrument Utilization at the Business
                                     Mail Entry Unit in Buffalo, New York
                                     NO-AR-05-005; 12/20/2004                           —           —              —       $29,017            —
                                     Mail Evaluation, Readability and Lookup
                                     INstrument Utilization at the Business
                                     Mail Entry Unit In Nashville, Tennessee
                                     NO-AR-05-002; 11/24/2004                           —           —              —       $15,146            —



34 | Semiannual Report to Congress
                                                                                                                                                                         APPENDIX A
REPORT LISTING
The following complete listing of all OIG reports is grouped ﬁrst by Postal Service ‘Delivering Results’ STAR, second by category of review and
year, if applicable, and then alphabetically by title.
For the period of October 1, 2004, through March 31, 2005.

 IMPROVING SERVICE
 DELIVERY AND RETAIL
City Letter Carrier Operations – Rio Grande        Self-Service Vending Program – Fort Worth        Self-Service Vending Program – Paciﬁc Area
District                                           District                                         DR-AR-05-006; 10/27/2004
DR-AR-05-009; 12/02/2004                           DR-AR-05-003; 10/14/2004
                                                                                                    Self-Service Vending Program – Santa Ana
Self-Service Vending Program – Bay Valley          Self-Service Vending Program – Greensboro        District
District                                           District                                         DR-AR-05-007; 11/04/2004
DR-AR-05-008; 11/01/2004                           DR-AR-05-005; 10/19/2004
                                                                                                    Self-Service Vending Program – Southwest Area
Self-Service Vending Program – Boston District     Self-Service Vending Program – Northeast Area    DR-AR-05-010; 12/10/2004
DR-AR-05-002; 10/14/2004                           DR-AR-05-011; 02/01/2005
Self-Service Vending Program – Cincinnati          Self-Service Vending Program – Oklahoma
District                                           District
DR-AR-05-004; 10/14/2004                           DR-AR-05-001; 10/14/2004


 NETWORK PROCESSING
Processing of Overseas Military Absentee Ballots
NO-AR-05-007; 03/30/2005


 MANAGING COSTS
 AUDIT OF STATISTICAL TESTS FOR FISCAL YEAR 2004 COST AND REVENUE ANALYSIS
Cost and Revenue Analysis (Capping Report)
FF-AR-05-076; 03/08/2005


 AUDIT OF STATISTICAL TESTS FOR FISCAL YEAR 2005 COST AND REVENUE ANALYSIS
Central New Jersey District                        Lakeland District                                Sacramento District
FF-AR-05-046; 01/19/2005                           FF-AR-05-054; 02/07/2005                         FF-AR-05-056; 02/08/2005
Detroit District                                   Mississippi District                             San Diego District
FF-AR-05-052; 02/04/2005                           FF-AR-05-032; 12/29/2004                         FF-AR-05-057; 02/08/2005
Fort Worth District                                Northern, Ohio District                          San Francisco International Service Center
FF-AR-05-092; 03/24/2005                           FF-AR-05-024; 12/20/2004                         FF-AR-05-061; 02/11/2005
Greater South Carolina District                    Portland District                                Southeast New England District
FF-AR-05-042; 01/12/2005                           FF-AR-05-063; 02/14/2005                         FF-AR-05-070; 03/09/2005
Greensboro District
FF-AR-05-051; 02/02/2005


 FINANCIAL STATEMENTS
Accountability at the San Francisco Vehicle        Fiscal Year 2004 Postal Service Financial        Opinion on the Postal Service’s Special-Purpose
Maintenance Facility                               Statements Audit – St. Louis Information         Financial Statements
FT-AR-05-008; 01/18/2005                           Technology and Accounting Service Center         FT-AR-05-002; 12/08/2004
                                                   FT-AR-05-009; 03/15/2005
Agreed-upon Procedures Report for Federal                                                           Postal Service Board of Governors’ Travel and
Intragovernmental Transactions                     Fiscal Year 2004 Postal Service Financial        Miscellaneous Expenses for Fiscal Year 2004
FT-AR-05-001; 12/02/2004                           Statements Audit – Washington, D.C.,             FT-AR-05-004; 12/20/2004
                                                   Headquarters
Fiscal Year 2004 Postal Service Financial          FT-AR-05-006; 01/10/2005                         Postal Service Ofﬁcers’ Travel and
Statements Audit – Eagan Information                                                                Representation Expenses for Fiscal Year 2004
Technology and Accounting Service Center           Imprest Fund at the Former Columbia, Maryland,   FT-AR-05-003; 12/20/2004
FT-AR-05-005; 01/10/2005                           Facilities Service Ofﬁce
                                                   FT-MA-05-001; 01/06/2005
Fiscal Year 2004 Postal Service Financial
Statements Audit – San Mateo Information
Technology and Accounting Service Center
FT-AR-05-007; 01/12/2005
                                                                                                                          October 1, 2004, through March 31, 2005 | 35
           FISCAL YEAR 2004 FINANCIAL INSTALLATION AUDIT

          Business Mail Entry Units (Capping Report)        Cohasset Post Ofﬁce                              Rancocas Post Ofﬁce
          FF-AR-05-065; 02/24/2005                          FF-AR-05-015; 11/17/2004                         FF-AR-05-007; 10/28/2004
          Contract Postal Units (Capping Report)            Dallas Main Post Ofﬁce                           San Juan and Old San Juan Self-Service
          FF-AR-05-100; 03/31/2005                          FF-AR-05-014; 11/16/2004                         Postal Units
                                                                                                             FF-AR-05-011; 12/06/2004
          Post Ofﬁces, Branches, and Stations               Enﬁeld Business Mail Entry Unit
          (Capping Report)                                  FF-AR-05-003; 10/07/2004                         San Juan Main Ofﬁce Window Service
          FF-AR-05-097; 03/31/2005                                                                           FF-AR-05-010; 12/06/2004
                                                            Maple Grove Business Mail Entry Unit
          Stamp Distribution Ofﬁces (Capping Report)        FF-AR-05-001; 10/01/2004                         Seymour Business Mail Entry Unit
          FF-AR-05-074; 03/31/2005                                                                           FF-AR-05-009; 11/04/2004
                                                            Ocean City Main Post Ofﬁce
          Self-Service Postal Centers (Capping Report)      FF-AR-05-008; 11/04/2004                         Spearman Post Ofﬁce
          FF-AR-05-073; 03/02/2005                                                                           FF-AR-05-002; 10/07/2004
                                                            Old San Juan Post Ofﬁce
          Caguas Main and North Stations                    FF-AR-05-012; 12/06/2004                         Westbrae Station
          FF-AR-05-016; 12/07/2004                                                                           FF-AR-05-005; 10/20/2004
                                                            Rahway Main Ofﬁce
          Caribbean District                                FF-AR-05-006; 10/26/2004                         Woodstock Business Mail Entry Unit
          FF-AR-05-013; 12/06/2004                                                                           FF-AR-05-004; 10/12/2004


           FISCAL YEAR 2005 FINANCIAL INSTALLATION AUDIT

          Apalachicola Post Ofﬁce – Apalachicola, Florida   Claysburg Business Mail Entry Unit –             Greenville Business Mail Entry Unit –
          FF-AR-05-087; 03/17/2005                          Claysburg, Pennsylvania                          Greenville, Texas
                                                            FF-AR-05-091; 03/23/2005                         FF-AR-05-038; 01/05/2005
          Barstow Post Ofﬁce, Barstow, Maryland
          FF-AR-05-083; 03/11/2005                          Clifton Business Mail Entry Unit –               Harold Business Mail Entry Unit –
                                                            Clifton, New Jersey                              Harold, Kentucky
          Bergenﬁeld Main Ofﬁce – Bergenﬁeld,               FF-AR-05-082; 03/08/2005                         FF-AR-05-038; 03/31/2005
          New Jersey
          FF-AR-05-023; 12/27/2004                          Columbia Business Mail Entry Unit –              Joppa Business Mail Entry Unit –
                                                            Columbia, Tennessee                              Joppa, Maryland
          Berne Business Mail Entry Unit – Berne, Indiana   FF-AR-05-080; 03/08/2005                         FF-AR-05-075; 03/02/2005
          FF-AR-05-089; 03/23/2005
                                                            Diamond Farms Automated Postal Center –          Kaplan Post Ofﬁce – Kaplan, Louisiana
          Bloomﬁeld Hills Business Mail Entry Unit –        Gaithersburg, Maryland                           FF-AR-05-081, 03/08/2005
          Bloomﬁeld Hills, Michigan                         FF-AR-05-067; 02/23/2005
          FF-AR-05-039; 01/05/2005                                                                           Knightsen Main Post Ofﬁce –
                                                            Dublin Business Mail Entry Unit – Dublin, Ohio   Knightsen, California
          Blue Island Illinois Business Mail Entry Unit –   FF-AR-05-090; 03/23/2005                         FF-AR-05-094; 03/29/2005
          Blue Island, Illinois
          FF-AR-05-019; 12/10/2004                          East Point Station – Atlanta, Georgia            Land O’Lakes Postal Store –
                                                            FF-AR-05-072; 02/25/2005                         Land O’Lakes, Florida
          Bonham Main Post Ofﬁce – Bonham, Texas                                                             FF-AR-05-033; 12/29/2004
          FF-AR-05-059; 02/09/2005                          Elmira Heights Branch – Elmira, New York
                                                            FF-AR-05-020; 12/14/2004                         Lansdale Business Mail Entry Unit –
          Brookhaven Station, Atlanta, Georgia                                                               Lansdale, Pennsylvania
          FF-AR-05-030; 12/29/2004                          Falls Church Automated Postal Center –           FF-AR-05-044; 01/18/2005
                                                            Falls Church, Virginia
          Cartersville Business Mail Entry Unit –           FF-AR-05-037; 01/06/2005                         Lee’s Summit Self-Service Postal Center –
          Cartersville, Georgia                                                                              Lee’s Summit, Missouri
          FF-AR-05-041; 01/06/2005                          Fort Myers Business Mail Entry Unit –            FF-AR-05-068; 02/22/2005
                                                            Fort Myers, Florida
          Chandler Post Ofﬁce – Chandler, Texas             FF-AR-05-064; 02/14/2005                         Leesburg Business Mail Entry Unit –
          FF-AR-05-026; 12/27/2004                                                                           Leesburg, Virginia
                                                            General Mail Facility Finance Station –          FF-AR-05-096; 03/29/2005
          Chanhassen Business Mail Entry Unit –             Denver, Colorado
          Chanhassen, Minnesota                             FF-AR-05-025; 12/27/2004
          FF-AR-05-086; 03/16/2005
                                                            Glen Cove Business Mail Entry Unit –
          Claremont Station Automated Postal Center –       Glen Cove, New York
          Everett, Washington                               FF-AR-05-050; 01/28/2005
          FF-AR-05-055; 02/04/2005




36 | Semiannual Report to Congress
                                                                                                                                                   APPENDIX A
Linden Main Ofﬁce – Linden, New Jersey             Paris Business Mail Entry Unit –
FF-AR-05-029; 12/27/2004                           Paris, Texas
                                                   FF-AR-05-017; 12/08/2004
Long Island City Business Mail Entry Unit – Long
Island City, New York                              Pensacola Business Mail Entry Unit –
FF-AR-05-027; 12/28/2004                           Pensacola, Florida
                                                   FF-AR-05-079; 03/08/2005
Ludlam Branch Post Ofﬁce, Miami – Florida
FF-AR-05-098; 03/30/2005                           Piqua Business Mail Entry Unit – Piqua, Ohio
                                                   FF-AR-05-053; 02/08/2005
Lynchburg Downtown Station –
Lynchburg – Virginia                               Point Richmond Station – Richmond, California
FF-AR-05-060; 02/11/2005                           FF-AR-05-022; 12/20/2004
Mariner Station – Seal Beach, California           Port Tobacco Post Ofﬁce – Port Tobacco,
FF-AR-05-093; 03/28/2005                           Maryland
                                                   FF-AR-05-069; 02/25/2005
Martinez Business Mail Entry Unit –
Martinez, California                               Port Townsend Business Mail Entry Unit –
FF-AR-05-101; 03/31/2005                           Port Townsend, Washington
                                                   FF-AR-05-058; 02/09/2005
McLaren Station – San Francisco, California
FF-AR-05-028; 12/28/2004                           Portland Self-Service Postal Center Unit #0036
                                                   FF-AR-05-049; 01/28/2005
Milpitas Business Mail Entry Unit –
Milpitas, California                               Rochelle Business Mail Entry Unit –
FF-AR-05-078; 03/04/2005                           Rochelle, Illinois
                                                   FF-AR-05-036; 01/03/2005
Minneapolis Business Mail Entry Unit –
Minneapolis, Minnesota                             San Antonio Business Mail Entry –
FF-AR-05-045; 01/13/2005                           San Antonio, Texas
                                                   FF-AR-05-043; 01/11/2005
Mundelein Business Mail Entry Unit –
Mundelein, Illinois                                Seahurst Main Ofﬁce – Burien, Washington
FF-AR-05-062; 02/11/2005                           FF-AR-05-018; 12/08/2004
New Port Richey Carrier Annex –                    Sheridan Post Ofﬁce – Sheridan, Montana
New Port Richey, Florida                           FF-AR-05-066; 02/18/2005
FF-AR-05-035; 12/30/2004
                                                   Somerset Business Mail Entry Unit –
North Lake Travis Branch – Lago Vista, Texas       Somerset, New Jersey
FF-AR-05-034; 12/29/2004                           FF-AR-05-047; 01/20/2005
North Port Arthur Station – Port Arthur, Texas     Staten Island Business Mail Entry Unit –
FF-AR-05-077; 03/04/2005                           Staten Island, New York
                                                   FF-AR-05-084; 03/23/2005
North Side Station – Dothan, Alabama
FF-AR-05-021; 12/17/2004                           Sumter Business Mail Entry Unit –
                                                   Sumter, South Carolina
Oak Park Business Mail Entry Unit –                FF-AR-05-088; 03/17/2005
Oak Park, Illinois
FF-AR-05-048; 01/24/2005                           Wheaton Branch – Silver Spring, Maryland
                                                   FF-AR-05-040; 01/05/2005
Ocala Post Ofﬁce – Ocala, Florida
FF-AR-05-071; 02/25/2005
Ocean Springs Business Mail Entry Unit –
Ocean Springs, Mississippi
FF-AR-05-095; 03/28/2005
Olympia Business Mail Entry Unit –
Olympia, Washington
FF-AR-05-031; 12/29/2004
Palo Alto Business Mail Entry Unit –
Palo Alto, California
FF-AR-05-085; 03/16/2005




                                                                                                    October 1, 2004, through March 31, 2005 | 37
           DEVELOPING PEOPLE
           HUMAN CAPITAL
          Complaints of a Hostile Work Environment
          at a South Florida District Priority Mail
          Processing Center
          HM-AR-05-001; 11/04/2004


           INFORMATION SYSTEMS
          Reports Distribution
          IS-AR-05-001; 10/25/2004


           NETWORK PROCESSING
          Efﬁciency Review of the Akron, Ohio,               Efﬁciency Review of the Mansﬁeld, Ohio,           Ofﬁce of Inspector General Assistance to
          Processing and Distribution Center                 Main Post Ofﬁce                                   Evolutionary Network Development Independent
          NO-AR-05-009; 03/30/2005                           NO-AR-05-004; 12/08/2004                          Veriﬁcation and Validation Team
                                                                                                               NO-MA-05-001; 03/30/2005


           SUPPLY MANAGEMENT
          Application of Agreed-Upon Procedures to Costs     Audit of Firm Fixed Price Proposal Submitted by   Audit of Incurred Cost Price Adjustment Proposal
          Incurred Under Contract 102592-00-Z-0799           Lockheed Martin Distribution Technologies –       and Reformation Proposal Submitted by
          Submitted by Logistics Management Institute        Owego, Under Solicitation Number                  Matheson Flight Extenders, Incorporated Under
          CA-CAR-05-001; 10/14/2004                          3BMHRD-03-B-4267                                  Contract Number SNET-01-WR
                                                             CA-CAR-05-007; 12/27/2004                         CA-CAR-05-004; 12/01/2004
          Audit of Certiﬁed Price Adjustment Claim
          Submitted by Evergreen Aviation Ground             Audit of Firm Fixed Price Proposal Submitted by   Audit of Parts of a Firm Fixed Price Proposal
          Logistics Enterprises, Incorporated, Under         Lockheed Martin Systems Integration – Owego       Submitted by Advanced Technology and
          Contract Number TNET 93-01                         Under Solicitation Number 3BNHRD-040-A-1342       Research Corporation, Under RFP Number
          CA-CAR-05-014; 02/24/2005                          CA-CAR-05-006; 12/14/2004                         3BMHRD-04-A-1337
                                                                                                               CA-CAR-05-002; 10/25/2004
          Audit of Certiﬁed Price Adjustment Claim           Audit of Firm Fixed Price Proposal Submitted by
          Submitted by Evergreen Aviation Ground             Lockheed Martin Systems Integration – Owego,      Audit of Price Adjustment Proposal Submitted by
          Logistics Enterprises, Incorporated, Under         Under Solicitation Number 3AAERD-04-Z-6397        Integrated Airline Services, Incorporated Under
          Contract Number TNET 93-01                         CA-CAR-05-009; 01/14/2005                         Contract Number SNET-01-SWR
          CA-CAR-05-011; 01/20/2005                                                                            CA-CAR-05-005 11/30/2004
                                                             Audit of Firm Fixed Price Proposal Submitted
          Audit of Certiﬁed Price Adjustment Claim           by Northrop Grumman Corporation Electronic        Automated Postal Center Program Management
          Submitted by Evergreen Aviation Ground             Systems Company                                   CA-AR-05-001; 12/21/2004
          Logistics Enterprises, Incorporated, Under         CA-CAR-05-008; 01/10/2005
          Contract Number TNET 93-01                                                                           Beach Haven Post Ofﬁce – Beach Haven,
          CA-CAR-05-010; 01/20/2005                          Audit of Firm Fixed Price Proposal Submitted      New Jersey
                                                             by Northrop Grumman Corporation Electronic        CA-OT-05-002; 11/02/2004
          Audit of Firm Fixed Price Base Proposal            Systems Company
          Submitted by Lockheed Martin Systems               CA-CAR-05-015; 03/14/2005                         Corporate Contact Management – GAO Fraudnet
          Integration Owego – Under Solicitation Number                                                        CA-OT-05-001; 10/13/2004
          3AAERD-04-Z-6397                                   Audit of Forward Pricing Rate Proposal for
                                                             Standard Labor, Material Overhead, Program        Post Occupancy Review of the Greensboro, North
          CA-CAR-05-012; 02/03/2005                                                                            Carolina, and Columbus, Ohio, Processing and
                                                             Overhead, and Postal General and Administrative
          Audit of Firm Fixed Price Proposal Submitted by    Expense Rates Submitted by Siemens Logistics      Distribution Centers
          ABB Automation, Incorporated, Under Solicitation   and Assembly Systems                              CA-MA-05-001; 02/08/2005
          Number 3BMHRD-04-A-1116                            CA-CAR-05-013; 02/11/2005
          CA-CAR-05-003; 10/25/2004




38 | Semiannual Report to Congress
                                                                                                                                                                             APPENDIX A
TRANSPORTATION
Mail Backlogs at the Hartsﬁeld – Jackson Atlanta    Mail Transport Equipment Service Center             Surface Transportation – Bulk Mail Center
International Airport                               Network – Network Realignment – Pittsburgh,         Highway Transportation Routes – Eastern Area
NL-AR-05-002; 03/08/2005                            Detroit, Cleveland                                  NL-AR-05-003; 03/17/2005
                                                    NL-AR-05-001; 01/25/2005
Mail Transport Equipment Service Center                                                                 Surface Transportation – Bulk Mail Center
Network – Equipment Processing                      Surface Networks – Intermodal Rail and Highway      Highway Transportation Routes – Southeast Area
NL-AR-05-006; 03/31/2005                            Transportation – Paciﬁc Area                        NL-AR-05-005; 03/18/2005
                                                    NL-AR-05-004; 03/18/2005


 GROWING REVENUE
 MARKETING
Postal Service’s Negotiated Service Agreement
With Capital One
ST-AR-05-001; 12/20/2004


 NETWORK PROCESSING
Mail Evaluation, Readability and Lookup             Mail Evaluation, Readability and Lookup             Mail Evaluation, Readability and Lookup
INstrument Utilization at the Business Mail Entry   INstrument Utilization at the Business Mail Entry   INstrument Utilization at the Business Mail Entry
Unit in Buffalo, New York                           Unit In Nashville, Tennessee                        Unit in Sacramento, California
NO-AR-05-005; 12/20/2004                            NO-AR-05-002, 11/24/2004                            NO-AR-05-008; 03/30/2005
Mail Evaluation, Readability and Lookup             Mail Evaluation, Readability and Lookup             Mail Evaluation, Readability and Lookup
INstrument Utilization at the Business Mail Entry   INstrument Utilization at the Business Mail Entry   INstrument Utilization at the Business Mail Entry
Unit in Mobile, Alabama                             Unit in Oklahoma City, Oklahoma                     Unit in Terre Haute, Indiana
NO-AR-05-003; 12/02/2004                            NO-AR-05-006; 01/18/2005                            NO-AR-05-001; 11/23/2004


 PERSERVING INTEGRITY
 INFORMATION SYSTEMS
Click-N-Ship Application Control Review             Oracle Security Environment at the Eagan            Security Assessment (PhoneSweep) of PBX Site
IS-AR-05-005; 02/22/2005                            and San Mateo Information Technology and            Event Buffers
                                                    Accounting Service Centers                          IS-CS-05-001; 12/08/2004
Click-N-Ship Security Vulnerability Assessment      IS-AR-05-002; 11/10/2004
IS-CS-05-002; 01/13/2005                                                                                Windows Server Security at the Eagan,
                                                    Postal Service’s Business Partner Connectivity –    Minnesota, and San Mateo, California,
Fiscal Year 2004 Information Systems General        Firewall Permissions                                Information Technology and Accounting
Controls Capping Report                             IS-AR-05-006; 03/24/2005                            Service Centers
IS-AR-05-004; 01/28/2005                                                                                IS-AR-05-003; 01/05/2005


 OVERSIGHT OF INVESTIGATIVE ACTIVITIES
Audit of Postal Inspection Service’s Emergency
Preparedness
SA-AR-05-001; 01/05/2005




                                                                                                                              October 1, 2004, through March 31, 2005 | 39
APPENDIX B
FINDINGS OF QUESTIONED COSTS
For the period October 1, 2004, through March 31, 2005
Questioned Costs: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.

            OFFICE OF INSPECTOR GENERAL AND POSTAL INSPECTION SERVICE
            As required by the Inpector General Act (IG), the following pages show the total number of audit reports and the total dollar value of questioned costs
            in audit reports.
                                                                                                              Number                      Total       Unsupported
                                                                                                                   of               Questioned    Costs Included In
            Description                                                                                       Reports                    Costs    Questioned Costs
            Reports for which no management decision was made at the beginning of the
            reporting period                                                                                        12              $63,715,526          $6,716,428
            Reports requiring management decision that were issued during the reporting period                      18              $17,090,638            $22,837
            TOTAL                                                                                                   30              $80,806,164          $6,739,265
            Reports for which a management decision was made during the reporting period (i+ii)                      9               $3,700,471            $22,837
               (i) Dollar value of disallowed cost                                                                  —                $2,328,399             $1,470
               (ii) Dollar value of cost not disallowed                                                             —                $1,372,072            $21,367
            Reports for which no management decision was made by the end of the reporting
            period. Negotiations are ongoing.                                                                       21              $77,105,693          $6,716,428
            Reports for which no management decision was made within six months of issuance
            (See Note 1 for a list of individual reports)                                                            3              $49,245,892          $4,718,940
            Reports for which no management decision was made within one year of issuance
            (See Note 2 for a list of individual reports)                                                            6              $13,208,954          $1,997,488


           Note 1 - Reports for which no management decision was made within six months of issuance:                                      Total       Unsupported
                                                                                                                                    Questioned    Costs Included in
            Subject                                                              Report Number             Report Date                   Costs    Questioned Costs
            Audit of Termination for Convenience Price Adjustment Claim
            Submitted by Abcon Associates, Incorporated                           CA-CAR-04-022               6/16/2004              $4,478,385         $2,702,465
            Vehicle Management – Delivery Vehicles – Buy versus Lease              NL-AR-04-005               9/30/2004             $42,751,032                 —
            Vehicle Management – Trailer Requirements – Northeast Area             NL-AR-04-006               9/30/2004              $2,016,475         $2,016,475
            OFFICE OF INSPECTOR GENERAL TOTAL                                                                                       $49,245,892         $4,718,940


           Note 2 - Reports for which no management decision was made within one year of issuance:                                                Unsupported Costs
                                                                                                                                                        Included In
                                                                                                                              Total Questioned          Questioned
            Subject                                                               Report Number             Report Date                  Costs                Costs
            Contract Audit – M.E.S. Incorporated                                  CA-CAR-02-045                 6/28/02              $1,053,263           $134,340
            Contract Audit – M.E.S. Incorporated                                  CA-CAR-02-051                 9/13/02                $620,681           $187,271
            Contract Audit – Bell and Howell Mail and
            Messaging Technologies                                                CA-CAR-03-002                10/16/02                $343,759                 —
            Contract Audit – D. L. Kaufman, Incorporated                          CA-CAR-03-011                 2/11/03              $4,028,935                 —
            Audit of Equitable Adjustment Claim Submitted by
            STV, Incorporated                                                      IR-CAR-03-011                9/30/03                 $98,569                 —


            OFFICE OF INSPECTOR GENERAL TOTAL                                                                                        $6,145,207           $321,611
            Contract Audit; 181-1294644-AC(1)                                                                  11/17/99              $7,063,747          $1,675,877
            POSTAL INSPECTION SERVICE TOTAL                                                                                          $7,063,747          $1,675,877
            COMBINED TOTAL                                                                                                          $13,208,954          $1,997,488



            40 | Semiannual Report to Congress
                                                                                                                                                                      APPENDIX C
APPENDIX C
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
For the period October 1, 2004, through March 31, 2005
Funds Put to Better Use: Funds that could be used more efﬁciently by implementing recommended actions.
As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds that management
can put to better use.

OFFICE OF INSPECTOR GENERAL
                                                                                                                             Number
Description                                                                                                               of Reports           Dollar Value
Reports for which no management decision was made at the beginning of the
reporting period                                                                                                                   8          $161,242,201
Reports requiring management decision that were issued during the reporting period                                                 7          $114,646,808
TOTAL                                                                                                                             15          $275,889,009
Reports for which a management decision was made during the report period (i + ii)                                                 6          $113,600,568
   (i) Value of recommendations agreed to by management                                                                           —           $105,652,568
   (ii) Value of recommendations that management did not agree                                                                    —             $7,948,000
Reports for which no management decision was made by the end of the reporting
period*                                                                                                                            9          $162,288,441
Reports for which no management decision was made within six months of issuance
(See Note 1 for a list of individual reports)                                                                                      3           $55,257,637
Reports for which no management decision was made within one year of issuance
(See Note 2 for a list of individual reports)                                                                                      5          $105,984,564


Note 1 - Reports for which no management decision was made within six months of issuance:
                                                                                                                                       Recommend Funds
Subject                                                                                        Case Number              Report Date      Put to Better Use
Vehicle Management – Trailer Requirements – Northeast Area                                     NL-AR-04-006               9/30/2004             $7,300,150
Vehicle Management – Delivery Vehicles – Buy versus Lease                                      NL-AR-04-005               9/30/2004            $40,296,954
Bulk Mail Center Highway Transportation Routes – Great Lakes Area                              NL-AR-04-004               9/29/2004             $7,660,533
TOTAL                                                                                                                                          $55,257,637



Note 2 - Reports for which no management decision was made within one year of issuance:
                                                                                                                                       Recommend Funds
Subject                                                                                        Case Number              Report Date      Put to Better Use
Bulk Fuel Purchase Plan                                                                        TR-AR-01-004               7/27/2001            $15,918,035
Trailer Lease Justiﬁcation                                                                     TD-AR-02-002               3/29/2002            $82,349,739
New York Metro Area Operational Use of Trailers                                               TD-MA-03-001                1/29/2003             $2,495,344
New York Metro Area Trailer Acquisition – Lease versus Buy                                     TD-AR-03-009               3/31/2003             $4,021,234
Vehicle Maintenance Facilities – Chicago District – Accidental Vehicle Damage Cost and
Vehicle Safety, Security, and Appearance                                                       NL-AR-04-002              12/05/2003             $1,200,212
TOTAL                                                                                                                                         $105,984,564


* Included are amounts where Postal Service management agreed to take the recommended corrective action but could not comment on some of the potential
  savings until analyses were completed. The majority of identiﬁed savings were agreed to and decisions were reﬂected in a prior reporting period.




                                                                                                                       October 1, 2004, through March 31, 2005 | 41
APPENDIX D
REPORTS WITH SIGNIFICANT RECOMMENDATIONS PENDING
CORRECTIVE ACTIONS
For the period through March 31, 2005
As required by the IG Act, the following pages include a list of each audit report issued before the commencement of the reporting period for which no management
decision has been made by the end of the reporting period.

                      OFFICE OF INSPECTOR GENERAL
                                         Number of
                        Issue            Recommen-                                                                                                  Report
                        Date             dations*           Report Title                                                                            Number

                         4/30/2001               1          Inspection Service Support to Postal Service Threat Assessment Teams                    OV-AR-01-002
                         7/27/2001               5          Bulk Fuel Purchase Plan                                                                 TR-AR-01-004
                         2/22/2002               3          Review of the Facilities Management System for Windows                                  IS-AR-02-003
                         3/29/2002               1          Review of Contracts Associated with Biohazard Threat                                    CQ-MA-02-002
                         3/29/2002               2          Trailer Lease Justiﬁcation                                                              TD-AR-02-002
                                                            Southwest Area’s Efforts in Obtaining Appropriate Chargeback Credits for Identiﬁed
                          5/8/2002               1          Wage Compensation Overpayments and Refundable Disbursements                             LH-AR-02-003
                          7/9/2002               4          Review of eBusiness Agreements                                                          EM-AR-02-012
                         7/10/2002               2          New York Metro Area Trailer Acquisition Requirements                                    TD-MA-02-003
                          9/3/2002               2          Postal Service’s Corporate Succession Planning Process                                  LH-AR-02-004
                         9/26/2002               1          Utility Payments to Commonwealth Edison                                                 FT-AR-02-015
                         9/27/2002               3          Effectiveness of the Postal Service’s Asset Locator                                     FT-AR-02-017
                         9/30/2002               2          Associate Supervisor Program in the Great Lakes Area                                    LH-AR-02-005
                        10/28/2002               1          New York Metro Area Trailer Acquisition - Safety and Length                             TD-AR-03-001
                         1/29/2003               2          New York Metro Area Operational Use of Trailers                                         TD-MA-03-001
                                                            Fiscal Year 2002 Postal Service Financial Statements Audit – St. Louis Information
                         1/30/2003               1          Technology and Accounting Service Center                                                FT-AR-03-008
                         3/12/2003               2          Address Change Service                                                                  TD-AR-03-004
                                                            Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis, and
                         3/28/2003               2          Des Moines Bulk Mail Centers                                                            CQ-AR-03-001
                         3/31/2003               1          Retail Data Mart System – Security Issues                                               OE-AR-03-002
                         3/31/2003               2          New York Metro Area Trailer Acquisition – Lease Versus Buy                              TD-AR-03-009
                         6/13/2003               1          Postal Inspection Service Tracking of Investigative Workhours and Activity              SA-AR-03-003
                                                            Efﬁciency of Work Performed by Business Mail Entry Clerks Within the
                         7/31/2003               2          Los Angeles District                                                                    AO-AR-03-001
                         8/21/2003               2          Propriety of Postal Service Utility Payments                                            FT-AR-03-011
                         9/10/2003               1          Retail Data Mart System – Data Integrity and Expected Beneﬁts                           OE-AR-03-006
                                                            Efﬁciency of Work Performed by Business Mail Entry Clerks in the San Francisco
                         9/25/2003               2          Business Mail Entry Unit                                                                AO-AR-03-002
                                                            Postal Inspection Service Controls Over Firearms – Reconciliation of Sturm, Ruger and
                         9/26/2003               2          Company, Inc. Firearms                                                                  SA-AR-03-006
                         9/29/2003               1          Enhanced Carrier Route Standard Mail Worksharing Discounts                              AC-AR-03-006
                         9/30/2003               8          General Controls at the Engineering Research and Development Center                     IS-AR-03-008
                         9/30/2003               3          Postal Service and Union Labor Relations                                                LH-AR-03-012
                                                            Fiscal Year 2003 Information System Controls, Eagan, San Mateo, and St. Louis
                         12/2/2003               1          Information Technology and Accounting Service Centers                                   IS-AR-04-001

                       * Pending corrective action




            42 | Semiannual Report to Congress
                                                                                                                                                                    APPENDIX D
                  Number of
 Issue            Recommen-                                                                                                 Report
 Date             dations*    Report Title                                                                                  Number
                              Vehicle Maintenance Facilities – Chicago District – Accidental Vehicle Damage Cost and
 12/5/2003                3   Vehicle Safety, Security, and Appearance                                                      NL-AR-04-002
 3/10/2004                1   Information Systems Disaster Recovery Process                                                 IS-AR-04-004
 3/30/2004                2   Compliance with the Bank Secrecy Act                                                          FF-AR-04-100
                              Efﬁciency of the San Francisco International Service Center and the General Services
 3/31/2004                1   Administration Facility                                                                       NO-AR-04-006
 3/31/2004                1   Efﬁciency of the Oakland International Service Facility and the Regatta Facility              NO-AR-04-007
 4/21/2004                1   Postal Inspection Service’s Postal Police Ofﬁcers                                             SA-AR-04-001
                              Follow-up of the Network Security and Security Testing of Load Balancers at the San
   6/8/2004               2   Mateo Host Computing Services                                                                 IS-AR-04-006
   7/1/2004               1   Financial Opportunities of Underutilized Land                                                 CA-MA-04-004
 9/22/2004                2   Self-Service Vending Program – Nevada-Sierra District                                         DR-AR-04-009
 9/24/2004                1   Technology Acquisition Management                                                             DA-AR-04-003
 9/24/2004                1   Efﬁciency of the New York International Service Center                                        NO-AR-04-009
 9/28/2004                2   Self-Service Vending Program – Sacramento District                                            DR-AR-04-011
 9/29/2004                3   Bulk Mail Center Highway Transportation Routes – Great Lakes Area                             NL-AR-04-004
 9/29/2004                3   Vehicle Management – Trailer Requirements – Northeast Area                                    NL-AR-04-006
 9/30/2004                1   Fiscal Year 2003 Supply Chain Management Savings                                              CA-AR-04-003
 9/30/2004                1   Advanced Facer Canceler System Improvements                                                   DA-AR-04-004
 9/30/2004                2   Self-Service Vending Program – Southeast Area                                                 DR-AR-04-013
 9/30/2004                2   Postal Service’s Business Partner Connectivity                                                IS-AR-04-014
 9/30/2004                5   Vehicle Management – Delivery Vehicles – Buy Versus Lease                                     NL-AR-04-005
10/14/2004                2   Self-Service Vending Program – Boston District                                                DR-AR-05-002
10/25/2004                1   Reports Distribution                                                                          IS-AR-05-001
10/27/2004                2   Self-Service Vending Program – Paciﬁc Area                                                    DR-AR-05-006
 11/1/2004                2   Self-Service Vending Program – Bay Valley District                                            DR-AR-05-008
 11/4/2004                2   Self-Service Vending Program – Santa Ana District                                             DR-AR-05-007
12/10/2004                2   Self-Service Vending Program – Southwest Area                                                 DR-AR-05-010
12/21/2004                6   Automated Postal Center Program Management                                                    CA-AR-05-001
                              Fiscal Year 2004 Postal Service Financial Statements Audit – Eagan Information
 1/10/2005                2   Technology and Accounting Service Center                                                      FT-AR-05-005
                              Mail Transport Equipment Service Center Network – Network Realignment – Pittsburgh,
 1/25/2005                2   Detroit, Cleveland                                                                            NL-AR-05-001
   2/1/2005               2   Self-Service Vending Program – Northeast Area                                                 DR-AR-05-011
                              Fiscal Year 2004 Postal Service Financial Statements Audit – St. Louis Information
 3/15/2005                1   Technology and Accounting Service Center                                                      FT-AR-05-009
                              Surface Transportation – Bulk Mail Center Highway Transportation Routes –
 3/17/2005                2   Eastern Area                                                                                  NL-AR-05-003
 3/18/2005                1   Intermodal Rail and Highway Transportation – Paciﬁc Area                                      NL-AR-05-004
                              Surface Transportation – Bulk Mail Center Highway Transportation Routes –
 3/18/2005                1   Southeast Area                                                                                NL-AR-05-005
 3/29/2005                1   Efﬁciency Review of the Akron, Ohio, Processing and Distribution Center                       NO-AR-05-009

* Pending corrective action




                                                                                                                     October 1, 2004, through March 31, 2005 | 43
APPENDIX E
SIGNIFICANT MANAGEMENT DECISIONS IN AUDIT RESOLUTION
For the period October 1, 2004, through March 31, 2005
As required by the IG Act, the following pages discuss information concerning any signiﬁcant management decision with which the Inspector General disagrees and is
currently in audit resolution.

                                 OFFICE OF INSPECTOR GENERAL
                                 Trailer Lease Justiﬁcation                    New York Metro Area Trailer
                                 (TD-AR-02-002, 3/29/2002)                     Acquisition – Lease Versus Buy
                                                                               (TD-AR-03-009, 3/31/2003)
                                 Recommendation 1: The OIG
                                 recommended the Vice President,               Recommendation 1: The OIG
                                 Purchasing and Materials prepare a            recommended the Vice President, Supply
                                 Decision Analysis Report to purchase          Management prepare a Decision Analysis
                                 the common ﬂeet trailers currently under      Report in accordance with Postal Service
                                 the nationwide lease and submit it to the     investment policy to support acquisition
                                 Board of Governors.                           of trailers for the New York Metro Area.
                                 Recommendation 4: The OIG recom-              Recommendation 2: The OIG
                                 mended the Vice President, Purchasing         recommended the Vice President, Supply
                                 and Materials develop management              Management submit the Decision Analy-
                                 controls to ensure use of a Decision          sis Report to the Board of Governors for
                                 Analysis Report for leases exceeding          approval.
                                 $10 million per year.
                                                                               Agency Response: Postal Service
                                 Agency Response: Postal Service               management pointed out that the issues
                                 management stated the National Trailer        raised during this audit were substantially
                                 Lease was not a lease, but a service          the same as the issues raised during the
                                 contract, and as a result, did not require    Trailer Lease Justiﬁcation audit. Accord-
                                 a Decision Analysis Report or Board of        ingly, the OIG has joined its resolution
                                 Governors’ approval. However, on July         efforts concerning these two audits.
                                 22, 2002, in an effort to reach resolution,
                                 the deputy postmaster general directed
                                 Postal Service management to analyze
                                 the National Trailer Lease in accordance
                                 with the procedures speciﬁed by the
                                 Postal Service investment policy, and
                                 stated that Postal Service Finance would
                                 independently verify the analysis in
                                 accordance with the same procedures
                                 they use for capital projects. The OIG is
                                 currently working with the Postal Service
                                 to resolve this issue.




            44 | Semiannual Report to Congress
                                                                                                                                               APPENDIX F
APPENDIX F
INVESTIGATIVE STATISTICS1
For the period October 1, 2004, through March 31, 2005


OFFICE OF INSPECTOR GENERAL
                                                                            Employee Mail
Misconduct Statistics                                                       Theft Statistics2
Investigations completed                                  1,269                        1,115

Arrests/Indictments/Informations                            194                          316
Convictions/Pretrial diversions                               23                         218
Administrative Actions                                      306                          800
Fines, restitutions and recoveries              $12,251,411.40                            —
      Amount to Postal Service3                  $3,521,640.28                            —


1
    Statistics include joint investigations with the U.S. Postal Inspection Service and other
    federal law enforcement agencies.
2
    Cases worked solely by the Postal Inspection Service.
3
    Amount included in total ﬁnes, restitutions and recoveries.




                                                                                                October 1, 2004, through March 31, 2005 | 45
APPENDIX G
                        SUMMARY OF POSTAL SERVICE INVESTIGATIVE ACTIVITIES
                        UNDER 39 USC 3013
                        For the period October 1, 2004, through March 31, 2005
                        The Postal Reorganization Act requires the Postmaster General to furnish information on the investigative activities of the Postal Service by
                        the U.S. Postal Service Inspection Service on a semiannual basis. With passage of the Deceptive Mail Prevention and Enforcement Act in
                        December 1999, the Postal Service’s reporting obligations were changed. The Act requires the Postal Service to submit its semiannual report
                        on investigative activities to the Ofﬁce of Inspector General rather than to the Board of Governors, expands the subject matter that must be
                        reported, and revises the reporting schedule to coordinate with the OIG Semiannual Report to Congress. The information in the report includes
                        actions directed at combating crimes involving the mail; costs and expenditures devoted to Postal Service investigative activities; use of
                        subpoena power; and any additional information the OIG may require.
                        The following information summarizes the administrative and judicial actions initiated and resolved during the reporting period. These
                        actions include the issuance of cease and desist orders directed to mailers, actions to intercept payments fraudulently induced, and
                        orders seeking to intercept fraudulent mailings.


                        SUMMARY OF U.S. POSTAL INSPECTION SERVICE ACTIONS UNDER 39 USC 3005 AND 3007
                         For the period October 1, 2004, through March 31, 2005

                                                                        Complaints          Consent                              Cease &
                         Type of Scheme                                      Filed       Agreements                FROs     Desist Orders
                         False Billings                                            3                 2                 2                 4
                         Internet Auction                                          1                 1                 1                 1
                         Lotteries (Foreign and Domestic)                          2                 –                 –                 –
                         Medical                                                   1                 –                 –                 –
                         Merchandise:                                              –                 –                 –                 –
                            Failure to furnish                                     1                 1                 1                 1
                            Misrepresentation                                      1                 1                 –                 1
                         Miscellaneous                                             1                 –                 –                 –
                         Work at Home                                              2                 1                 1                 3
                         TOTAL                                                    12                 6                 5                10




                         OTHER ADMINISTRATIVE ACTIONS                                                FINANCIAL REPORTING ON INVESTIGATIVE
                         Administrative Action Requests                           20                 ACTIVITIES FY 2005 MO 1-6
                         Temporary Restraining Orders Requested                    4                 Type                                    Semiannual Report
                         Temporary Restraining Orders Issued                       2                 Personnel                                      $167,831,425
                         Civil Injunctions (1345) Requested                        2                 Nonpersonnel                                    $40,396,168
                         Civil Injunctions (1345) Issued                           2
                         Cases Using Direct Purchase Authority                     3                 TOTAL                                          $208,227,593
                         Civil Penalties Imposed                        $1,315,842                   Capital Obligations                               $3,085,048
                         Expenditures Incurred for:
                            Test Purchases                                     $510                  NOTE: There were no administrative subpoenas issued during
                            Expert Testimony                                       –                       the reporting period.
                            Witness Travel                                         –
                         Withholding Mail Orders Issued                           15
                         Voluntary Discontinuances                                12




   46 | Semiannual Report to Congress
                                                                                                                                                                           APPENDIX H
APPENDIX H
CLOSED CONGRESSIONAL AND BOARD OF GOVERNORS INQUIRIES
For the period October 1, 2004, through March 31, 2005
This appendix lists the 43 Congressional and Governors inquiries the OIG closed during this reporting period. The OIG reviewed these inquiries to help identify
systemic issues and to determine the need for future Postal Service-wide audits.


 MANAGING COSTS
 Requestor                                    Allegations/Concern                                                                      Closure Date
                                              Improper contracting procedures used in closing Mail Transport Equipment
 Governors                                    Service Center.                                                                             28-Jan-05
 Governors                                    Senior USPS employee accepted bribes from a contractor.                                     10-Mar-05
 Senator, Iowa                                Improprieties in procurement.                                                               17-Mar-05
 Representative, Oklahoma                     Improprieties in procurement.                                                                8-Oct-04
 Representative, Oklahoma                     Improprieties in procurement.                                                                8-Oct-04
 Representative, Texas                        Postal Service violated its rules on selection of independent contractors.                  17-Mar-05
 Senator, California                          Allegations of fraud, waste, and mismanagement at a Post Ofﬁce.                             14-Oct-04
 Representative, Tennessee                    Improprieties in the USPS Fuel Management Program.                                          15-Nov-04
                                              Improprieties at a Postal Service facility, including sexual harassment and
 Senator, Missouri                            misuse of government credit cards.                                                          17-Mar-05
 Representative, Alabama                      Delays in EEO case settlement.                                                               4-Nov-04
 State Assemblyman, California                Request to review plans for closing two postal facilities.                                  15-Nov-04
 Representative, Ohio                         Request for assistance to obtain a response for an MSPB case.                                7-Dec-04
 Senator, West Virginia                       Improprieties in assigning a rural route.                                                   30-Nov-04
 Senator, California                          Misuse of government vehicle.                                                               15-Mar-05
 Senator, Texas                               Retaliation following protected communications.                                              3-Mar-05
 Representative, Louisiana                    Availability of report concerning alleged on-the-job injury.                                16-Mar-05
 Representative, Alabama                      Request for assistance regarding an EEO case.                                               22-Mar-05


 PRESERVING INTEGRITY AND SECURTY
 Requestor                                    Allegations/Concern                                                                      Closure Date
 Representative, Florida                      Misreporting and misuse of medical information by supervisor.                               10-Mar-05
 Representative, Maryland                     Harassment, intimidation, interrogation, and surveillance.                                   6-Oct-04
 Representative, Alabama                      Harassment and hostile work environment at a Post Ofﬁce.                                    27-Oct-04
 Representative, Virginia                     Harassment and retaliation at a Post Ofﬁce.                                                 27-Oct-04
                                              Misuse of Postal Service facilities and equipment to harass and slander an
 Senator, Virginia                            individual and a corporation.                                                                2-Feb-05
 Senator, West Virginia                       Delays in delivery or loss of mail.                                                         22-Nov-04
 Senator, Georgia                             Availability of OIG report conﬁrming forged training documents.                              9-Nov-04
 Senator, Georgia                             Misdelivery or loss of Priority Mail.                                                        3-Nov-04
 Senator, Arizona                             Retaliation as a result of an EEO complaint and communication with the OIG.                  7-Dec-04
                                              FOIA request and Worker’s Compensation issues under control of the
 Representative, Georgia                      Postal Service.                                                                             22-Nov-04
 Senator, West Virginia                       Refusal to deliver Standard Mail.                                                           22-Nov-04




                                                                                                                            October 1, 2004, through March 31, 2005 | 47
                      Senator, New York               Possible forgery of leave documents.                                             2-Dec-04
                      Representative, Virginia        Delays in mail delivery.                                                         6-Dec-04
                      Representative, Arizona         Availability of OIG investigative report.                                       17-Feb-05


                      DEVELOPING PEOPLE
                      Requestor                       Allegations/Concern                                                           Closure Date
                      Representative, Missouri        Harassment and violations of Family and Medical Leave Act at a Post Ofﬁce.       26-Oct-04
                      Governor                        Noise complaints at a Post Ofﬁce.                                                2-Nov-04
                      Representative, Massachusetts   Retaliation following an EEO complaint against the OIG.                          18-Oct-04
                      Senator, Texas                  OIG employee reassignment.                                                      13-Dec-04
                      Senator, Massachusetts          Harassment, discrimination, and retaliation by an OIG employee.                  29-Oct-04
                      Senator, California             Registered nurse qualiﬁcations at a Postal Service facility.                     2-Nov-04
                      Representative, Texas           OIG employee reassignment.                                                      13-Dec-04
                      Senator, Massachusetts          Harassment, discrimination, and retaliation by an OIG employee.                 13-Jan-05
                      Representative, Hawaii          Medical records provided under subpoena not yet returned.                       15-Feb-05
                                                      Request for information on existing Postal Service programs and initiatives
                      Senator, Wyoming                to combat obesity.                                                               9-Mar-05




48 | Semiannual Report to Congress
                                                                                                                                                                                SUPPLEMENTAL INFORMATION
SUPPLEMENTAL INFORMATION
AUDIT SYNOPSES
For the period October 1, 2004, through March 31, 2005


IMPROVING SERVICE                                                         MANAGING COSTS
City Letter Carrier Operations — Rio Grande District,                     Accountability at the San Francisco Vehicle Maintenance
DR-AR-05-009                                                              Facility, FT-AR-05-008
The OIG found opportunities to improve the management of city letter      The OIG conducted an audit of the San Francisco Vehicle Mainte-
carrier operations in the Cresthaven, J. Frank Dobie, and University      nance Facility (VMF) as part of the annual ﬁnancial statements audit
Park delivery units. The OIG recommended the Manager, Rio Grande          of the San Mateo Information Technology and Accounting Service
District make a number of changes including direct delivery unit          Center. The audit looked at whether the VMF properly accounted
supervisors and managers to require carriers to properly complete         for vehicle parts, bulk fuel and oil inventories, and vehicles. The OIG
required forms; instruct the supervisors to only authorize time that      found that the San Francisco VMF did not maintain accountability
carriers request, obtain, and use correct time factors for approving      over vehicle parts inventories and ﬁve types of vehicle parts could
and justifying requests for additional time; require supervisors to       not be reconciled to the local VMF accounting system. Additionally
properly and fully utilize the DOIS system.                               there were differences between the physical counts used to update
The OIG also recommended requiring delivery unit supervisors and          the two parts accounting systems and between the physical counts
managers, scheduled for an upcoming route inspection, to review           and the amounts recorded in the Vehicle Management Accounting
the Southwest Area’s Post Route Adjustment Guidelines on post             System (VMAS). The differences were not reconciled, nor was the
evaluation follow-up procedures and provide additional training to        VMAS updated to reﬂect the accurate numbers of parts.
managers or supervisors in more effectively using Managed Ser-
vice Points (a computerized tool designed to monitor consistency          Application of Agreed-Upon Procedures to Costs Incurred
of delivery time and enhance street management using mobile               Under Contract Number 102592-00-Z-0799 Submitted by
data collection devices). The OIG also recommended requiring              Logistics Management Institute, CA-CAR-05-001
supervisors and managers to consistently document unauthorized            This report presented results of the application of agreed-upon
overtime on required forms and take appropriate corrective action.        procedures to costs incurred under contract 102592-00-Z-0799
Management agreed with the OIG’s ﬁndings and recommendations              submitted by the Logistics Management Institute. The audit’s aim
and has completed initiatives and plans addressing the issues in this     was to verify costs incurred and determine their allowability. The
report. Management also agreed that the $193,947, identiﬁed by            audit disclosed no questioned or unallowable costs. The OIG did not
the OIG using the F2B Audit process, was unjustiﬁed cost. However,        perform an examination and, accordingly, did not express an opinion
management stated that through their analysis only 2,543 hours            on the subject matter of this report. Additional matters might have
or $92,762 was unrecoverable. The OIG reported only $92,762 as            come to the OIG’s attention and been reported, if more procedures
unrecoverable costs.                                                      had been performed.

Self-Service Vending Program, DR-AR-05-001, DR-AR-05-002,                 Audit of Certiﬁed Price Adjustment Claim Submitted by a
DR-AR-05-003, DR-AR-05-004, DR-AR-05-005, DR-AR-05-006,                   Logistics Company, Under Contract Number TNET 93-01,
DR-AR-05-007, DR-AR-05-008, DR-AR-05-010                                  CA-CAR-05-011
The Self-Service Vending (SSV) Program provides an alternative to         The OIG audited a $3,755,842 certiﬁed price adjustment claim for
the retail counter that gives customers convenient access 24 hours-       the period of July 18, 1998, through April 5, 2004, submitted by a
a-day, seven days-a-week, to the postal products and services they        logistics company for the handling of mail containers at an airmail
most frequently need.                                                     facility. The audit looked at whether the claimed costs were accept-
                                                                          able as a basis to negotiate a fair and reasonable settlement. The
During reviews of the SSV equipment in various districts, the OIG
                                                                          audit questioned the claim in its entirety because the claimed costs
noted that Postal Service ofﬁcials could increase revenue oppor-
                                                                          do not represent the incremental additional costs associated with the
tunities by redeploying equipment that did not meet minimum
                                                                          claimed additional work and are not supported by the contractor’s
revenue requirements. Further, ofﬁcials could discontinue the use
                                                                          accounting records. The contractor has not made any attempt to
of obsolete equipment to reduce maintenance and repair costs.
                                                                          speciﬁcally identify and quantify the claimed additional labor.
The OIG’s physical observation of vending machines, in the various
districts, indicated that the machines are, overall, easily accessible,   The results of the audit are qualiﬁed because the contractor’s
with few exceptions.                                                      accounting system did not accumulate direct costs by job or con-
                                                                          tract. Also, the issue of contractor entitlement was not addressed in
Area management agreed with the ﬁndings and recommendations
                                                                          this report because it is a matter for legal determination.
and initiated corrective actions to redeploy underperforming vend-
ing equipment and remove obsolete equipment. Further, the Vice            The audit found that the contractor submitted inadequate cost or
President, Delivery and Retail, issued a directive in August 2004 to      pricing data and the claim was not prepared in accordance with
implement nationwide changes in the Postal Service’s Self Service         appropriate provisions of the Postal Service’s Purchasing Manual.
Vending Program. The changes included development of a task force         Because the noncompliances were considered signiﬁcant, the OIG
to implement a self-service strategy that would eliminate costly          did not consider the claim to be an acceptable basis for negotiation
obsolete vending equipment; remove and redeploy current, under-           of a fair and reasonable settlement.
performing vending equipment; and revise removal and redeploy-
ment vending machine criteria.




                                                                                                                                 October 1, 2004, through March 31, 2005 | 49
                     Audit Opinion on the Postal Service’s Special-Purpose                     Haven, N.J., Post Ofﬁce. The OIG discussed those concerns with the
                     Financial Statements: Federal Intragovernmental Transactions,             Postal Service Law Department and South Jersey District personnel
                     FT-AR-05-002, FT-AR-05-001                                                and learned that postal ofﬁcials participated in non-binding media-
                     The OIG audited the Postal Service’s “special-purpose closing pack-       tion with neighboring residents on October 7, 2004. The Postal Ser-
                     age” and performed agreed-upon procedures on federal intragov-            vice plans to continue discussions to resolve concerns and agreed to
                     ernmental transactions. (The special-purpose closing package is a         meet with the residents again. The OIG believes this matter is best
                     submission of ﬁscal year-end ﬁnancial statements and other related        addressed by ﬁrst allowing the agreed-upon mediation to proceed;
                     data to the Department of the Treasury, as required by Section 405 of     and therefore does not plan to perform any further review.
                     the Government Management Reform Act of 1994. The data is used
                     in preparing the Financial Report of the United States.)                  Contract Reviews
                                                                                               The Defense Contract Audit Agency (DCAA) performed 15 contract-
                     The reclassiﬁed balance sheet as of September 30, 2004, and               related audits during this reporting period at the OIG’s request. The
                     the related reclassiﬁed statements of net cost and changes in net         audits evaluated cost proposals associated with Robotic Container-
                     position for the year then ended, and accompanying notes, were            ization Systems, Automatic Tray Sleevers, and Automatic Flat Sorting
                     prepared by the Postal Service to provide ﬁnancial information to the     Machines. The DCAA also audited certiﬁed price adjustment claims,
                     Department of the Treasury and GAO to use in preparing and auditing       veriﬁed incurred costs, and determined whether forward pricing
                     the Financial Report of the U.S. Government. In the OIG’s opinion,        rates were reasonable. The OIG considered most of the cost propos-
                     the special-purpose ﬁnancial statements were presented fairly, in all     als acceptable for negotiating fair and reasonable rates; however,
                     material respects, the ﬁnancial position of the Postal Service as of      the claims were not considered to be acceptable as a basis for
                     September 30, 2004, and its net costs and changes in net position         negotiation of a fair and reasonable settlement. In total, $17 million
                     for the year then ended in conformity with accounting principles          was identiﬁed as potential contract savings.
                     generally accepted in the United States, and the presentation was
                     pursuant to the requirements prescribed in the Treasury Financial         Corporate Contact Management — GAO Fraudnet,
                     Manual, Chapter 4700.                                                     CA-OT-05-001
                                                                                               The OIG conducted a limited review of allegations of mismanage-
                     Automated Postal Center Program Management, CA-AR-05-001                  ment, by the Postal Service and Convergys Corporation, in develop-
                     The Automated Postal Center (APC) program ofﬁce began a phased,           ing a new customer contact system. The OIG found that the Postal
                     nationwide deployment of 2,500 APCs on April 1, 2004. The process         Service entered into the contract to streamline and consolidate
                     for selecting APC deployment sites needed improvement, since the          various customer-call centers and estimates substantial savings with
                     Postal Service had incurred $68,742 for facility design and support for   this initiative. The OIG found no evidence that key applications were
                     46 sites no longer included in the APC deployment schedule. These         deemed out of scope or that there were multiple contracts; contract
                     costs represent unrecoverable costs for the Postal Service. Also, the     terms that permit Convergys to subcontract portions of the work;
                     deployed APCs generally met requirements but were found to be             and Convergys failure to meet the milestone required for receipt of
                     missing four functional capabilities described in the DAR, APC devel-     its associated bonus payment.
                     opment, and deployment processes, including control weaknesses
                     that exposed the Postal Service to unnecessary risks. Additionally,       Efﬁciency Review of the Mansﬁeld, Ohio, Main Post Ofﬁce,
                     APC capital investment costs may exceed the approved $95.43 mil-          NO-AR-05-004
                     lion capital funding level. Finally, the program ofﬁce generally kept     An OIG audit of the Mansﬁeld Main Post Ofﬁce (MPO) found it could
                     the Board of Governors and senior Postal Service ofﬁcials informed of     improve operational efﬁciency by reducing 24,000 mail process-
                     changes in APC program status via the Investment Highlights reports,      ing workhours, based on the assumption that mail volume will not
                     but did not disclose a potentially signiﬁcant operational concept         signiﬁcantly change from FY 2003 levels. This would allow the
                     change and the fact that four functional requirements, described in       Mansﬁeld MPO to achieve 90 percent of its targeted goals and could
                     the DAR, were not included with deployed APCs.                            produce a cost avoidance of approximately $7.6 million based on
                     Management agreed with the OIG’s recommendations to develop               labor savings over 10 years.
                     and document APC requirements; prepare schedules and cost                 The OIG also concluded that moving the outgoing mail operations
                     estimates for planned future upgrades not already on contract;            from the Mansﬁeld MPO to the Akron P&DC would save 28,000
                     complete site security reviews; and ensure contractor employees           workhours at the Mansﬁeld MPO, improve network efﬁciencies,
                     obtain appropriate security clearances. Additionally, management          and potentially upgrade delivery service. This workhour reduction
                     agreed to coordinate the site selection process for future APCs with      could produce a cost avoidance of more than $9.6 million based
                     all affected stakeholders, submit quarterly DAR compliance reports        on labor savings over ten years. The OIG reported this amount, and
                     that fully communicate missing APC functionality and operational          the approximately $7.6 million in labor savings, as funds put to
                     concept changes, and submit a DAR Modiﬁcation Request for Board           better use.
                     of Governor consideration and approval, if necessary, that identiﬁes
                     additional capital funding requirements. Finally, management agreed       Field Operations Reviews
                     to capitalize contractor Customer Acceptance Testing costs; however,      The OIG audited the ﬁnancial operations of 77 installations, includ-
                     they disagreed with recommendations to capitalize certain other           ing 34 post ofﬁces, 38 business mail entry units, and 5 self-service
                     program costs. The OIG considers management’s disagreement with           and automated postal centers. At 11 of the 77 installations, ﬁnancial
                     the recommendations as unresolved and is pursuing these issues            transactions were reasonably and fairly presented and generally
                     through the formal audit resolution process.                              internal controls were in place and effective. At 65 of the 77 instal-
                                                                                               lations, although ﬁnancial transactions were reasonably and fairly
                     Beach Haven, New Jersey Post Ofﬁce, CA-OT-05-002                          presented in the accounting records, and generally internal controls
                     The OIG examined documentation detailing noise and other concerns         were in place and effective, the OIG noted some internal control and
                     that neighboring residents voiced regarding operations at the Beach       compliance issues. For example, there were issues with account-




50 | Semiannual Report to Congress
                                                                                                                                                                               SUPPLEMENTAL INFORMATION
ability, cash, stamps and mail acceptance and veriﬁcation. Also, at      audit. Speciﬁcally, invoices coded to be paid the next business day
one of the 77 installations, internal controls were not in place.        were excluded from selection as part of the IT/ASC’s self-audit. As
For the FY 2005 Cost and Revenue Analysis, the OIG observed              a result, the San Mateo IT/ASC did not effectively use its self-audit
statistical tests conducted at 13 Postal Service installations. Data     program to ensure it correctly entered invoices into the Accounts
collectors generally followed Postal Service policies and procedures     Payable Accounting and Reporting System II (APARS II) and to iden-
when conducting statistical tests, except for some test errors at nine   tify systemic processing errors.
of the 13 installations.                                                 During the audit, the San Mateo IT/ASC took corrective action to
In support of an independent public accounting ﬁrm’s opinion on the      modify the timing of the APARS II selection of invoices for self-audit.
Postal Service’s ﬁnancial statements, the OIG examined the ﬁnancial      The OIG conﬁrmed that the system now selects invoices prior to
activities and accounting records at Postal Service Headquarters         processing invoices for payment, to include those invoices entered
and the Information Technology and Accounting Service Centers            into APARS II the previous day and coded for payment on the next
in St. Louis, Mo.; San Mateo, Calif.; and Eagan, Minn. The OIG also      business day. The results of the audit were discussed with Postal
audited computer systems that generate ﬁnancial data. The audit          Service management on October 26, 2004, but management chose
determined management’s policies and accounting procedures               not to respond because there were no recommendations.
conformed to generally accepted accounting principles and provided       Fiscal Year 2004 Postal Service Financial Statements Audit —
for an adequate internal control structure. The OIG did not identify     Washington, D.C., Headquarters, FT-AR-05-006
any instances of noncompliance with laws and regulations that have       The OIG audited selected ﬁnancial activities and accounting
a direct and material affect on the ﬁnancial statements.                 records at Postal Service Headquarters for the ﬁscal year end-
Fiscal Year 2004 Postal Service Financial Statements Audit —             ing September 30, 2004. The audit disclosed that management’s
Eagan Information Technology and Accounting Service Center,              ﬁnancial accounting policies and procedures conform to gener-
FT-AR-05-005                                                             ally accepted accounting principles and provide for an adequate
The OIG conducted its annual audit of the Postal Service’s ﬁnancial      internal control structure. Additionally, general ledger account
statements, in support of the independent public accounting ﬁrm’s        balances for investments, unemployment compensation, workers’
overall audit opinion on the Postal Service’s ﬁnancial statements.       compensation, and Governors’ and ofﬁcers’ travel and expenses
The audit disclosed that management’s ﬁnancial accounting                were stated in the national trial balance in accordance with these
policies and procedures conform to generally accepted accounting         principles. Also, the OIG did not identify any instances of noncom-
principles and provide for an adequate internal control structure.       pliance with laws and regulations that have a direct and material
Additionally, accounting transactions at the Eagan Information           effect on the ﬁnancial statements.
Technology and Accounting Service Center that affect the general         In FY 2004, the Postal Service switched from reporting ﬁnancial data
ledger account balances were fairly stated in the National Trial         based on 28-day accounting periods to monthly reporting and imple-
Balance Report in accordance with generally accepted accounting          mented a new general ledger system, therefore making a number of
principles. (The National Trial Balance Report represents the general    changes to its legacy chart of accounts, including the elimination and
ledger account balances that make up the ﬁnancial statements of          creation of accounts. The Postal Service’s general ledger account
the Postal Service.)                                                     balances remained consistent with the general classiﬁcation of
The OIG did not identify any instances of noncompliance with laws        accounts from the previous year. The asset, liability, equity, income,
and regulations that have a direct and material effect on the ﬁnancial   expense, and commitment accounts were appropriately classiﬁed
statements. However, the OIG identiﬁed an opportunity to improve         in the new general ledger system. The results of the audit were
the Postal Service’s impact on the overall adequacy of internal con-     discussed with Postal Service management on October 25, 2004.
trols. This report provided two recommendations to assist the Postal     Imprest Fund at the Former Columbia, Maryland, Facilities
Service in improving the internal controls over payroll processing.      Service Ofﬁce, FT-MA-05-001
Management agreed with the OIG’s recommendations and has                 The OIG reviewed an imprest fund at the former Columbia, Md.,
initiatives planned to be completed by the third quarter of FY 2005.     Facilities Service Ofﬁce, in response to a request from Postal Service
Fiscal Year 2004 Postal Service Financial Statements Audit —             Headquarters to review inactive imprest funds. The report presents
San Mateo Information Technology and Accounting Service                  an issue concerning $1,470 in unaccounted funds, which were
Center, FT-AR-05-007                                                     reported as questioned costs. The request listed eight imprest funds
The OIG audited the ﬁnancial activities and accounting records at        (totaling $17,400) for which personnel at Postal Service Headquarters
the Information Technology and Accounting Service Center (IT/ASC)        lacked sufﬁcient status reports. The San Mateo Accounting Service
in San Mateo, Calif., for the ﬁscal year ending September 30, 2004.      Center (ASC) personnel did not adequately monitor the imprest fund
The audit disclosed that management’s ﬁnancial accounting policies       because one of their technicians was not familiar with the require-
and procedures conform to generally accepted accounting principles       ment to monitor, initiate action, or report on funds not maintained in
and provide for an adequate internal control structure.                  accordance with Postal Service policies and procedures. As a result,
                                                                         the Postal Service could not determine what happened to $1,469.58
Additionally, accounting transactions at the San Mateo IT/ASC            of the recorded $2,000 imprest fund.
impacting the general ledger account balances were fairly stated
in the national trial balance in accordance with these principles.
Also, the OIG did not identify any instances of noncompliance with
laws and regulations that have a direct and material effect on
the ﬁnancial statements; however, the San Mateo IT/ASC did not
include all payments in its universe of invoices selected for self-




                                                                                                                                October 1, 2004, through March 31, 2005 | 51
                     Mail Transport Equipment Service Center Network — Network                   dures with a fact-ﬁnding investigation and report issued on April 15,
                     Realignment: Pittsburgh, Detroit, Cleveland, NL-AR-05-001                   2004, to the South Florida Human Resources Manager.
                     Postal Service ofﬁcials are realigning the Mail Transport Equipment         After receiving the OIG’s report, these managers developed an action
                     Service Center (MTESC) network to integrate or consolidate opera-           plan on June 21, 2004, to resolve the identiﬁed issues. The actions
                     tions, close facilities, and save money. As part of this realignment,       taken include ongoing monthly diversity training and activities for all
                     ofﬁcials planned to close service centers in Pittsburgh and Detroit,        employees in the following areas: anti-harassment, sexual harass-
                     and consolidate operations in Cleveland. On March 24, 2004, the             ment, equal employment opportunity, and sensitivity to others. Addi-
                     Board of Governors asked the OIG to examine the plan and notify             tionally, periodic meetings are held with supervisors and managers
                     them before the Postal Service moved operations to Cleveland, after         to ensure they are communicating and enforcing clear, uniform
                     receiving an allegation that the Postal Service never solicited revised     policies regarding employee issues such as attendance, light duty,
                     pricing from the incumbent contractor and that retaining operations         breaks, and leaving the building while on the clock.
                     in Pittsburgh and Detroit would be cheaper than moving to Cleve-
                     land. The Cleveland contract award was scheduled for May 7, 2004.           The OIG believes management addressed the issues raised by
                     Ultimately, the Postal Service decided not to consolidate operations        employees at the Miami PMPC and their proposed action plan should
                     to Cleveland. Instead, on August 6, 2004, management entered into           help improve the workplace environment; therefore, no recommen-
                     a ﬁve-year agreement with the incumbent Pittsburgh-Detroit con-             dations were made. Management generally agreed with most of the
                     tractor and anticipates savings of more than $21.6 million over a           report’s information and agreed with the OIG’s overall conclusion
                     ﬁve-year period compared to current costs.                                  that there are workplace issues at the Miami PMPC that need to
                                                                                                 be addressed.
                     Postal Service Board of Governors’ Travel and Miscellaneous
                     Expenses and Ofﬁcers’ Travel and Representation Expenses for
                     Fiscal Year 2004, FT-AR-05-004, FT-AR-05-003
                                                                                                 GROWING REVENUE
                     For the ﬁscal year ending September 30, 2004, the Board of Gover-           Mail Evaluation, Readability and Lookup INstrument Utilization
                     nors’ expenses of $234,000, and the ofﬁcers’ expenses of $1.4 mil-          at the Business Mail Entry Units, NO-AR-05-001,
                     lion were properly supported and complied with Board of Governors’          NO-AR-05-002, NO-AR-05-003, NO-AR-05-005
                     guidelines and Postal Service policies and procedures.                      These reports present the results of OIG self-initiated audits of
                                                                                                 the Mail Evaluation, Readability and Lookup INstrument (MERLIN)
                     Reports Distribution, IS-AR-05-001                                          utilization at Business Mail Entry (BMEU) associated detached mail
                     The Postal Service’s control of the distribution of print outputs by        units. The OIG assessed whether BMEU’s were fully using MERLIN
                     the Eagan Host Computing Services is essential to increasing efﬁ-           machines to verify business mailings and whether MERLIN utilization
                     ciency and minimizing associated costs. For this to occur, the Postal       rates have generally met the Postal Service target of 100 percent
                     Service must establish a steering committee to promote its existing         veriﬁcation of large mailings.
                     electronic infrastructure and implement an output distribution policy
                                                                                                 The OIG examined how well BMEU’s collected additional postage
                     that conveys its preference for using electronic media over printing
                                                                                                 assessed by MERLIN veriﬁcations and controlled overwrites of rev-
                     and distributing hardcopies of reports. Areas of opportunity exist for
                                                                                                 enue assessed by MERLIN to assure that additional postage would be
                     increasing the use of electronic media to print outputs that have an
                                                                                                 collected. The OIG recommended management comply with existing
                     electronic distribution method already in place and are capable of
                                                                                                 Postal Service guidance for documenting MERLIN Overwrite Reports.
                     being distributed electronically as part of ongoing initiatives. In addi-
                                                                                                 In addition, the OIG recommended management review and approve
                     tion, the Postal Service can reduce the frequency for mailing some
                                                                                                 or disapprove all overwrites of MERLIN assessments.
                     print outputs. The ﬁnancial impact of these speciﬁc opportunities is
                     $3,220,411, annually.                                                       Management was responsive to OIG recommendations that they
                                                                                                 reassess stafﬁng and scheduling, collect additional postage
                     The OIG agreed with Postal Service managers that a one-time offset-
                                                                                                 assessed by MERLIN veriﬁcations, and issue clarifying instructions
                     ting investment cost for conversion of hardcopy to electronic report
                                                                                                 on overwrite procedures.
                     distribution may be required. However, additional beneﬁts may also
                     be achieved by evaluating outputs and cost factors that the OIG did         Postal Service’s Negotiated Service Agreement with Capital
                     not consider in its review.                                                 One, ST-AR-05-001
                                                                                                 The OIG completed a self-initiated audit of the Postal Service’s negoti-
                     DEVELOPING PEOPLE                                                           ated service agreement (NSA) with Capital One Services, Inc. (Capital
                                                                                                 One), to determine the extent that the NSA achieved the intended
                     Complaints of a Hostile Work Environment at a South Florida                 results of increasing mail volume, revenue, and cost savings; and
                     District Priority Mail Processing Center, HM-AR-05-001                      to determine whether the Postal Service could rely on its systems to
                     The OIG found that a hostile work environment did not exist at the          obtain accurate and timely data on mail volume and revenue.
                     Miami Priority Mail Processing Center (PMPC) as a whole; however,
                                                                                                 The audit found the Postal Service could not rely on its Permit System
                     it may have existed for some employees because supervisors and
                                                                                                 to account for all of Capital One’s mail volume because a third-party
                     managers, working in a diverse environment failed to address
                                                                                                 mailer did not provide mail volume data speciﬁc to Capital One.
                     employee issues consistently. The OIG found no evidence that
                                                                                                 Consequently, the Postal Service had to manually calculate a portion
                     employee treatment was based on race. Additionally, South Florida
                                                                                                 of Capital One’s mail volume, which may not accurately account for
                     District and Miami PMPC managers were made aware of employee
                                                                                                 the mail volume data needed to determine whether Capital One is
                     complaints of a hostile working environment on at least two occa-
                                                                                                 entitled to a refund. In addition, postal ofﬁcials did not establish a
                     sions and responded according to Postal Service policies and proce-
                                                                                                 dedicated team, throughout the NSA process, to ensure adequate
                                                                                                 involvement by the necessary Postal Service departments. This




52 | Semiannual Report to Congress
                                                                                                                                                                                 SUPPLEMENTAL INFORMATION
occurred because the Postal Service did not have formal policies and         security by reviewing the current conﬁgurations. Management con-
procedures that deﬁned the roles, responsibilities, and established          curred with the two recommendations in the report.
timelines to process an NSA.
                                                                             Oracle Security Environment at the Eagan and San Mateo
As a result, Postal Service departments may encounter internal               Information Technology and Accounting Service Centers,
delays and experience a breakdown in communication throughout
                                                                             IS-AR-05-002
the process. The OIG recommended the Postal Service include a
                                                                             The OIG audited information systems controls for selected Oracle
clause in all future NSAs to require customers to stipulate that all
                                                                             applications at the Eagan, Minn., and San Mateo, Calif., Informa-
third-party mailers provide the Postal Service with customer speciﬁc
                                                                             tion Technology and Accounting Service Centers and found that the
mail volume data. Management disagreed in part with this, stating
                                                                             Oracle security environment related to the selected applications
that all data used to calculate Capital One’s volumes are taken from
                                                                             is reasonably secure. However, Postal Service management could
either the Permit or PostalOne! Systems, but agreed to look for
                                                                             improve controls. Management concurred with this recommenda-
ways to explicitly describe obligations of third parties in providing
                                                                             tion and agreed to make corrections by December 30, 2004.
mail volume. However, management felt third-party mailers were
not needed to provide data not relevant to an NSA. The OIG also              Security Assessment (PhoneSweep) of PBX Site Event Buffers,
recommended the Postal Service ﬁnalize the draft Handbook for                IS-CS-05-001
Negotiated Service Agreements, and management agreed to ﬁnalize              The OIG utilized PhoneSweep software to test 442 PBX site event
the draft by December 2004.                                                  buffers managed by Sprint and found that the telecommunications
                                                                             professionals are managing them well. PhoneSweep attempts to
PRESERVING INTEGRITY                                                         identify systems attached to remote modems and ﬁnd areas of poor
                                                                             security by guessing common usernames and passwords. The OIG
AND SECURITY                                                                 was able to connect to and identify site event buffers (modems),
                                                                             but were unable to penetrate them. Summary results show that
Audit of Postal Inspection Service’s Emergency Preparedness,
                                                                             PhoneSweep did not succeed in penetrating any systems. However;
SA-AR-05-001
                                                                             PhoneSweep did not complete the full brute force routine, because
The Postal Inspection Service (USPIS) has embraced the require-
                                                                             site event buffers were designed to freeze or stop sessions after
ments of Homeland Security Presidential Directive 5 and is taking
                                                                             attempts by the software the OIG used. No inconsistent results were
action to develop a USPIS-Integrated Emergency Management Plan
                                                                             found during this PhoneSweep scan. Finally, the OIG noted that
(IEMP) to fully meet the requirements while ensuring continuity with
                                                                             security alerts are functioning as intended and security incidents
the Postal Service’s IEMP. In July 2004, the USPIS established a
                                                                             identiﬁed by Sprint were reported to the Postal Service as required.
working group of subject matter experts made up of postal inspec-
tors from various divisions in the USPIS to help achieve a USPIS
all-hazard, one-plan goal. The USPIS has established a plan of action
with target dates for its IEMP initiative. This plan will assist the USPIS
with developing procedures to more effectively protect people and
maintain operations during emergencies.

Click-N-Ship Security Vulnerability Assessment, IS-CS-05-002
The OIG conducted a security vulnerability assessment on selected
servers that support the Click-N-Ship application to assess the secu-
rity of selected servers and to determine whether the servers were in
compliance with current Postal Service server hardening standards.
The Click-N-Ship application is generally secure; however, security
can be enhanced by frequent monitoring and review of system con-
ﬁgurations and compliance with Postal Service standards. Although
the report did not contain formal recommendations, the OIG urged
system administrators to review the information provided and use it
as a tool to assist in locating potential weaknesses, establishing pri-
orities for corrective action, and implementing repairs as necessary.

Computer Security at the Eagan, Minnesota, and San Mateo,
California, Information Technology and Accounting Service
Centers, IS-AR-05-003
The OIG audited information systems controls for selected servers, at
the Eagan, Minn., and San Mateo, Calif. Information Technology and
Accounting Service Centers, and found that Postal Service servers
were reasonably secure. The Postal Service has developed — and
continues to update — corporate-wide policies and procedures for
the purpose of building a consistent and secure server conﬁguration.
However, the audit found that management could improve server




                                                                                                                                  October 1, 2004, through March 31, 2005 | 53
SUPPLEMENTAL INFORMATION
INVESTIGATIVE SYNOPSES
For the period October 1, 2004, through March 31, 2005

                                 Acceptance of Gratuities and Loans Cost Senior Postal                     Jury Convicts Mail Handler of Fraud, Helps Postal Service Avoid
                                 Manager His Job                                                           $800,000 in Disability Beneﬁts
                                 The Postal Service ﬁred a senior Postal Service manager at the            A Postal Service mail handler was convicted, by a jury in U.S. District
                                 Dallas-Fort Worth Airport, on January 6, 2005, for accepting gifts and    Court in Martinsburg, W.Va., on March 31, 2005, on 26 counts of
                                 loans from a national contractor that he managed.                         fraud, resulting in an $800,000 cost avoidance to the Postal Service.
                                 The contractor provided passenger, cargo, and ramp handling ser-          The jury found the mail handler guilty on two counts of defrauding
                                 vices to major commercial and charter airlines, and held a Postal         the OWCP by concealing the true nature of his physical condition. He
                                 Service contract for the Dallas-Fort Worth Airport from May 1991          was also convicted on 5 counts of mail fraud and 19 counts of wire
                                 to May 2004. During this period, the manager took $10,000 in              fraud. The mail handler had been on disability, since 1996, and had
                                 gratuities, including meals and alcoholic beverages, and $3,500 in        received nearly $163,000 in compensation for work-related injuries.
                                 cash loans from the contractor. The contractor also employed the          OIG investigators found that he was routinely exceeding his medical
                                 manager’s spouse.                                                         restrictions.
                                 Contractor Jailed for Stealing $861,541 from Postal Service               The mail handler faces a maximum sentence of 20 years imprison-
                                 On December 3 and 6, 2004, a California Superior Court judge              ment and a $250,000 ﬁne on the mail and wire fraud counts; and a
                                 sentenced the owner of a vehicle repair shop to a two-year prison         maximum sentence of ﬁve years imprisonment and a $250,000 ﬁne
                                 term and payment of full restitution for stealing $861,541 from the       on the workers’ compensation fraud convictions.
                                 Postal Service. Between August 2001 and October 2003, the man             Neurologist and Wife Imprisoned for Health-Care Fraud, Must
                                 submitted Voyager credit card charges for services and gasoline           Pay Government $445,600
                                 not provided. He had held a contract since 2001 to maintain and           A Virginia neurologist and his wife were sentenced, on February 25,
                                 provide minor repair to Postal Service delivery vehicles.                 2005, for conspiracy and health-care fraud, in U.S. District Court in
                                 On October 8, 2004, the owner pled guilty to one of 10 counts of          Alexandria, Va. Both were convicted, on November 30, 2004, of one
                                 theft. To date, $99,329 of the stolen funds have been recovered,          count of conspiracy and 61 counts of health-care fraud. Both were
                                 with $97,000 of the reimbursement from a U.S. Bank credit to the          ordered to spend 41 months in jail, followed by 36 months super-
                                 Postal Service.                                                           vised probation. The neurologist was also ordered to pay $445,598
                                                                                                           in restitution to the government.
                                 Defective Rooﬁng Product Investigation Nets Postal Service
                                 More Than $2 Million                                                      OIG investigators found that the physician had treated 18 Postal
                                 The Postal Service has recovered $2,054,004 to date by opting into a      Service employees for $765,656 in medical service. He improperly
                                 class-action suit involving phenolic foam rooﬁng insulation (PFRI). Of    received $65,526 from OWCP by upcoding billing for services not
                                 this amount, $323,220 was recovered during this semiannual report-        rendered, and misrepresenting dates of services.
                                 ing period. PFRI can corrode metal roof decks and was installed on        Neurologist Indicted on 188 Counts of Health-Care and Mail
                                 various Postal Service facilities. It was manufactured and sold from      Fraud
                                 1980 through approximately 1992.                                          The U.S. Attorney’s Ofﬁce in Oakland, Calif., ﬁled an indictment,
                                 Opened in 2001, this national investigation is based on a referral        on January 20, 2005, charging a neurologist with 188 counts of
                                 from the Postal Service Law Department in St. Louis, Mo., indicating      health-care and mail fraud. (This indictment superseded one ﬁled on
                                 that two manufacturers of PFRI concealed the fact that it corrodes        October 28, 2004, that charged the neurologist with 102 counts of
                                 metal rooﬁng decks. OIG agents mined databases to identify postal         fraud.) The physician allegedly submitted fraudulent claims to vari-
                                 facilities where PFRI might be installed. They narrowed an initial list   ous health-care beneﬁt programs for services not provided to Postal
                                 of more than 8,000 postal facilities to 343 facilities that required      Service employees, Medicare beneﬁciaries, and private insurance
                                 additional testing to determine the presence of PFRI. Of those,           claimants. Since 1990, the Postal Service has paid the doctor more
                                 the OIG identiﬁed 58 facilities with PFRI. Additional recoveries are      than $391,969, under OWCP, for 32 postal employees.
                                 expected from outstanding claims.                                         The Medical Board of California issued a “no-practice” order against
                                 False Medical Claims Put Two Physical Therapists in Jail, Aide            the doctor on March 2, 2004. His physician’s and surgeon’s certiﬁcate
                                 on House Arrest                                                           was also suspended. A trial date is scheduled for October 2005.
                                 Two physical therapists and a physical therapist aide were convicted      Operation Bad Voyage Indicts 46, Arrests 41, and Seizes
                                 of fraud for submitting claims for health-care services that were         44 Vehicles
                                 neither necessary nor actually performed. The men submitted false         In the Operation Bad Voyage case, the OIG and other state and
                                 claims to Medicare, workers’ compensation programs (including the         federal agencies arrested 41 individuals on February 16, 2005, and
                                 OWCP for Postal Service employees), and private health insurers.          seized 44 vehicles, including two tanker trucks with 4,500- and
                                 On November 2, 2004, a U.S. District Court judge in Charlotte, N.C.,      9,500-gallon capacities. The operation also resulted in a 546-count
                                 sentenced one therapist to 41 months imprisonment and ordered             indictment ﬁled against 46 individuals and 10 companies in the 11th
                                 him to pay $281,064 in restitution. The judge ordered the aide to six     Judicial Circuit Court in Miami-Dade County, Fla. Since July 2003,
                                 months house arrest with work release. On September 10, 2004,             more than 270 account numbers from Postal Service Voyager Fleet
                                 the other therapist was sentenced to 16 months imprisonment. The          Cards and many Personal Identiﬁcation Numbers (PINs) have been
                                 OIG conducted this investigation jointly with the U.S. Department of      compromised to make approximately $400,000 in fraudulent fuel
                                 Health and Human Services, FBI, and state law enforcement ofﬁces.         purchases throughout the Miami area.




            54 | Semiannual Report to Congress
                                                                                                                                                                                SUPPLEMENTAL INFORMATION
To date, 73 arrests, 78 indictments, 1 information, and 5 sentencings           Top Ofﬁcers of Postal Subcontractor Guilty of Falsifying Payrolls
have resulted from this OIG joint investigation with the Miami-Dade             On March 8, 2005, the vice president of a construction and restoration
Police Department, Florida Department of Environmental Protection,              ﬁrm pleaded guilty in U.S. District Court, in Brooklyn, N.Y., to making false
U.S. Department of Transportation OIG, and U.S. General Services                statements to the Postal Service regarding certiﬁed payrolls. The ﬁrm’s
Administration OIG.                                                             president was expected to plead guilty to the same charge, at a court
                                                                                appearance scheduled for April 21. Both the president and vice president
Postal Ofﬁcial Admits Taking Gratuities from Subcontractor                      were arrested on December 14, 2004.
On October 28, 2004, a former high-level Postal Service manager pleaded
guilty to one count of knowingly receiving a contribution and supplementa-      The ﬁrm was the subcontractor on a $7 million contract that the Postal Ser-
tion to his salary from a source other than the Postal Service. He was          vice awarded for renovations at the John F. Kennedy International Airport
charged in an information ﬁled in U.S. District Court in South Bend, Ind., on   Post Ofﬁce, in Jamaica, N.Y. The subcontractor received about $470,000
September 23, 2004.                                                             for the work performed at Kennedy, from October 7, 2001, through May 13,
                                                                                2002. Evidence revealed that the president and vice president gave false
OIG investigators found that the manager accepted entertainment, in the         statements to the Postal Service by underreporting the number of employ-
form of golf outings, meals, and drinks, from a Postal Service subcontractor,   ees and overreporting what the company paid them. The OIG conducted
from 1998 to 2000. The manager was involved in, and supervised those            this investigation jointly with the Department of Labor OIG and the New
involved in, evaluating contract bid proposals. The contract ultimately was     York City Department of Investigation.
awarded to the subcontractor’s prime contractor. The former manager was
scheduled for sentencing on April 26, 2005, and is no longer employed by        Trucker Investigation Saves Postal More than $740,000 in
the Postal Service.                                                             Disability Beneﬁts
                                                                                An OIG investigation of a Postal Service tractor-trailer operator resulted
Printer Admits Bribery to Win Postal Contracts                                  in a potential cost avoidance to the Postal Service of more than
The owner and president of a local printing company were ﬁned $10,000           $740,000. On January 28, 2005, the operator pleaded guilty, in U.S.
by a U.S. District Court judge in Washington, D.C., on April 8, 2005. The       District Court in Denver, Co., to one count of making false statements
printer pleaded guilty, on January 24, 2005, to paying gratuities to a          to obtain federal employee’s compensation. Investigators determined
Postal Service purchasing specialist. From 1996 to 2003, the printer paid       that the operator fraudulently received more that $345,000 in workers’
gratuities to the employee, including a payment of $11,575 to his divorce       compensation beneﬁts.
attorney, in exchange for favorable treatment on numerous printing con-
tracts. OIG special agents conﬁrmed that the Postal Service awarded the         The operator was injured on the job, on January 2, 1995, when he slipped
printing company 212 contracts, with a value of $4.7 million. The printer       and fell on ice in a parking lot. He ﬁled a disability claim, which was
provided various services to the Postal Service, including the production of    accepted by the Department of Labor, OWCP, on March 21, 1995. OIG
brochures, labels, and posters.                                                 investigators found that the driver operated a car sales business, from
                                                                                June 2003 until August 2004, but failed to claim any type of employment
This investigation was opened as a spin-off from an earlier investigation       on annual OWCP questionnaires that he submitted in May and June 2003.
of the Postal Service purchasing specialist, who accepted more than
$771,000 in bribes and gratuities from various Postal Service printing          He was arrested on October 27, 2004, and scheduled for sentencing on
vendors in the Washington D.C., area. The printer is the seventh person in      April 15, 2005. The OIG investigated this case jointly with the USPIS.
this case to plead guilty, including the purchasing specialist and ﬁve other    Truck-Trailer Contractor to Pay $1.7 Million for Criminal False Claims
printing vendors.                                                               A San Francisco U.S. District Court judge ordered a Postal Service truck-
Purchasing Specialist Jailed for Taking $770,000 in Bribes                      trailer contractor who falsiﬁed repair estimates to pay a $500,000 criminal
A Postal Service purchasing specialist was ordered, by a U.S. District Court    ﬁne and $1.2 million to the OIG to cover investigative costs, on October
judge in Washington, D.C., to spend 46 months in jail and pay $771,363 in       5, 2004. The company pleaded guilty, on August 3, 2004, to one count
restitution to the Postal Service, on February 11, 2005. The former employee    of “making and using a false writing and document.” OIG investigators
signed a plea agreement, on October 7, 2004, admitting to receiving bribes      learned that the Texas contractor, who leases truck trailers for mail deliv-
and taking part in a conspiracy to commit money laundering.                     ery, ﬁled nearly 2,000 claims for damage reimbursement supported by
                                                                                forged and fraudulent bids and estimates. More than 95 percent of the
The OIG determined that the purchasing specialist steered Postal Service        claims submitted between 1997 and 2002, contained a falsiﬁed estimate
contracts to various printing companies for more than 12 years. The             for repair. The contractor also colluded with certain preferred vendors to
specialist used ﬁctitious front companies and dummy bank accounts to            undermine the required competitive bidding process. As a condition of its
launder some of the bribes. This investigation also resulted in guilty pleas    plea agreement, the company entered into a corporate integrity agree-
from a number of the printing vendors that were seeking and obtaining           ment with the Postal Service, requiring the implementation of a quality
printing contracts with the Postal Service through the purchasing special-      assurance program to ensure its compliance with postal regulations and
ist. Payments to some of the vendors go as far back as 1991.                    sound business ethics.




                                                                                                                                 October 1, 2004, through March 31, 2005 | 55
SUPPLEMENTAL INFORMATION
FREEDOM OF INFORMATION ACT
ACTIVITIES
For the period October 1, 2004, through March 31, 2005


                                  REQUESTS                                     Number of Requests
                                  Carryover from prior period                                 23
                                  Received during period                                      77
                                  Total on hand during the period                            100

                                  OIG ACTIONS                                  Number of Requests
                                  Processed during the period                                 95
                                  Released       (34)
                                  Withheld        (8)
                                  No records (29)
                                  Referred to Postal Service or other agency                  22
                                  Otherwise closed                                             2
                                  Total Processed During the Period                           95
                                  Balance at end of period (pending)                           5




            56 | Semiannual Report to Congress
                                                                                                                                                                              SUPPLEMENTAL INFORMATION
SUPPLEMENTAL INFORMATION
GLOSSARY
Advance fee scheme – Obtaining fees purporting to                First-Class Mail – A class of mail that includes all matter
secure buyers or obtain loans.                                   wholly or partly in writing or typewriting, all actual and
                                                                 personal correspondence, all bills and statements of
APC – Automated Postal Center, a kiosk that dispenses            account, and all matter sealed or otherwise closed against
postage and provides several mailing services. APC’s             inspection. First-Class Mail comprises three subclasses:
allow customers to weigh, calculate, and apply exact             postcards, letters and sealed parcels, and Priority Mail. Any
postage, and ship Express Mail and Priority Mail items,          mailable matter may be sent as First-Class Mail. First-Class
packages and First-Class letters right at the kiosks. They       Mail is a Postal Service trademark.
also provide easy access to postal products and services.
                                                                 Flat–size mail – A mailpiece that exceeds one of the
Bargaining unit employee – A Postal Service employee             dimensions for letter-size mail (11-1/2 inches long, 6-1/8
who is represented by a labor organization (union) that          inches high, 1/4 inch thick) but that does not exceed the
negotiates with the Postal Service for the wages, hours          maximum dimension for the mail processing category
and other terms and conditions of employment. These              (15 inches long, 12 inches high, 3/4-inch thick).
employees include city carriers, clerks, mail handlers,          Dimensions are different for automation rate ﬂat-size
rural carriers, special delivery messengers, maintenance         mail eligibility. Flat-size mail may be unwrapped, sleeved,
employees and motor vehicle operators.                           wrapped or enveloped.
BMEU – See Business mail entry unit.                             Fraud internet schemes – Fraudulent schemes using the
Bulk mail – Mail that is rated for postage partly by weight      Internet with a connection to the mail.
and partly by the number of pieces in the mailing. The term      FY – Fiscal Year.
is generally used to refer to Standard Mail (A).
                                                                 Highway contract transportation routes – A route served
Business mail entry unit (BMEU) – The area of a postal           by a postal contractor to carry mail by highway between
facility where mailers present bulk, presorted and permit        designated points.
mail for acceptance. The BMEU includes dedicated
platform space, ofﬁce space and a staging area on the            Logistical support network – Activities or programs
workroom ﬂoor.                                                   that support the transportation of mail, such as fuel
                                                                 procurement, mail transport equipment procurement and
Biohazard Detection System – The Biohazard Detec-                management, and vehicle management and maintenance.
tion System (BDS) is a system that is used to detect the
presence of harmful bio-agents that may exist in mailpieces      Lottery scheme – Advertisements seeking money or
that are processed in Processing and Distribution Centers        property by mail for participation in schemes to win prizes
(P&DCs) operated by the Postal Service. The BDS continu-         through chance.
ously monitors the air for hazardous aerosol contaminants
that may be released by mail being handled by one or             Merchandise failure to pay scheme – Mail order
more systems of United States Postal Service (USPS) mail         merchandise acquired without providing payment.
processing equipment.                                            Merchandise misrepresentation scheme – Mail order
Click-N-Ship – Click-N-Ship is an online, self-service           merchandise or services that are materially misrepresented
mailing application that allows customers to enter a delivery    in advertising.
address and weight, choose a service shipping option,            Negotiated Service Agreement (NSA) – A contractual
method of payment, and then print out postage-paid               agreement between the Postal Service and customers that
shipping labels.                                                 gives pricing incentives in exchange for a shift in customer
END initiative – The END initiative is the next step in the      behavior that beneﬁts the Postal Service.
Postal Service’s efforts to create a ﬂexible logistics network   OWCP – Administered by the U.S. Department of Labor,
to reduce costs, increase overall effectiveness, and improve     the Ofﬁce of Workers’ Compensation Programs (OWCP)
consistency of service.                                          provides direct compensation to providers, claimants, and
Express Mail – A mail class that provides expedited deliv-       beneﬁciaries.
ery service for mailable matter subject to certain standards.    Postal Rate Commission (PRC) – An independent federal
It is available in ﬁve basic domestic service offerings (Same    agency that makes recommendations on Postal Service re-
Day Airport Service, Custom Designed Service, Next Day           quests for changes in postal rates and mail classiﬁcations.
Service, Second Day Service and Military Service). Express       The ﬁve commissioners are nominated by the President and
Mail International Service is available between the United       approved by the U.S. Senate.
States and most foreign countries. Express Mail is a Postal
Service trademark.                                               Postal Reorganization Act – The statute that requires
                                                                 postal rates and fees to “provide sufﬁcient revenues so that
False billings scheme – Mailing solicitations in the guise       the total estimated income and appropriations…will equal
of billings.




                                                                                                                               October 1, 2004, through March 31, 2005 | 57
                                 as nearly as practicable total estimated costs.”
                                 (Public Law 91-375, signed August 12, 1970.)
                                 Priority Mail – First-Class Mail that weighs more than
                                 13 ounces and, at the mailer’s option, any other mail
                                 matter weighing 13 ounces or less. Priority Mail provides
                                 expedited delivery.
                                 Processing and Distribution Center/Facility (P&DC/F) –
                                 A central mail facility that processes and dispatches part or
                                 all of both incoming mail and outgoing mail for a designated
                                 service area. It also provides instructions on the preparation
                                 of collection mail, dispatch schedules, and sorting plan
                                 requirements to mailers.
                                 Remote Encoding Centers – When all computer-based
                                 means of resolving address information have been
                                 exhausted at a mail facility, an image of an address is sent
                                 to a remote encoding center (REC), where operators use
                                 video display terminals and keyboards to process the ad-
                                 dress information. The results of this encoding are sent back
                                 electronically to the facility that has the mailpiece, thereby
                                 keeping the mailpiece in the automated mailstream.
                                 Retail facility – A postal unit of a Post Ofﬁce and its
                                 subordinate units as well as military Post Ofﬁces that sell
                                 postage stamps and provide other postal retail services to
                                 customers. The subordinate units are within the service
                                 area of a main Post Ofﬁce and include Post Ofﬁce stations,
                                 Post Ofﬁce branches, contract postal units and non-
                                 personnel units.
                                 Standard Mail – A class of mail consisting of mailable
                                 matter that is not required to be mailed as First-Class Mail
                                 or is not mailed as Periodicals.
                                 Unsupported costs – Costs that are questioned because
                                 of inadequate supporting documentation for the proposed/
                                 claimed costs.
                                 Veriﬁcation – The procedural checks of a mailing
                                 presented by a mailer to determine proper preparation and
                                 postage payment.
                                 VMF – A Vehicle Maintenance Facility (VMF) is where the
                                 Postal Service maintains and repairs vehicles.
                                 Work at home scheme – Schemes, such as envelope
                                 stufﬁng, that do not provide home employment.




                                “The following are among the many trademarks owned by the United States Postal Service: United States Postal Service®, U.S. Postal Service®,
                                 USPS®, First Class Mail®, USPS.com®, Click-N-Ship®, Automated Postal Center®, APC®, Express Mail®, Priority Mail®, Standard Mail®, Parcel
                                 Post®, The Postal Store®, Media Mail®, Customized Market Mail®, United States Postal Service Ofﬁce of the Inspector General®, Post Ofﬁce™,
                                 Postal Service™, Signature Conﬁrmation™, Certiﬁed Mail™, Delivery Conﬁrmation™, Registered Mail™, Post Ofﬁce Box™, ZIP Code™, Carrier
                                 Pickup™ and Postmaster General™. The Sonic Eagle Logo and the Mail Truck Design are also registered trademarks belonging to the United
                                 States Postal Service.”




58 | Semiannual Report to Congress
OFFICE OF INSPECTOR GENERAL


Report
Fraud, Waste, and Miscon-
duct

CONTACT THE HOTLINE AT:

1-888-USPS OIG
1-888-877-7644 Fax: 1-866-756-6741
or www.uspsoig.gov
TTY (HEARING IMPAIRED)
1-866-OIG-TEXT
1-866-644-8398
        U.S. Postal Service
OFFICE OF INSPECTOR GENERAL
        1735 N. Lynn Street
     Arlington, VA 22209-2020
           (703) 248-2100
        Fax: (703) 248-2291
    Internet: www.uspsoig.gov
